<html>
<title> - REGULATORY REFORM TASK FORCES CHECK-IN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                 REGULATORY REFORM TASK FORCES CHECK-IN

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                AND THE

                      SUBCOMMITTEE ON HEALTHCARE,
                   BENEFITS, AND ADMINISTRATIVE RULES

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 24, 2017

                               __________

                           Serial No. 115-62

                               __________

Printed for the use of the Committee on Oversight and Government Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-293 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7c1b0c133c1f090f081419100c521f131152">[email&#160;protected]</a>                        
                       
                       
                       
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Blake Farenthold, Texas              Jim Cooper, Tennessee
Virginia Foxx, North Carolina        Gerald E. Connolly, Virginia
Thomas Massie, Kentucky              Robin L. Kelly, Illinois
Mark Meadows, North Carolina         Brenda L. Lawrence, Michigan
Ron DeSantis, Florida                Bonnie Watson Coleman, New Jersey
Dennis A. Ross, Florida              Stacey E. Plaskett, Virgin Islands
Mark Walker, North Carolina          Val Butler Demings, Florida
Rod Blum, Iowa                       Raja Krishnamoorthi, Illinois
Jody B. Hice, Georgia                Jamie Raskin, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Jimmy Gomez,California
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                    William McKenna, General Counsel
                Michael Koren, Professional Staff Member
                      Katy Rother, Senior Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                 Subcommittee on Government Operations

                 Mark Meadows, North Carolina, Chairman
Jody B. Hice, Georgia, Vice Chair    Gerald E. Connolly, Virginia, 
Jim Jordan, Ohio                         Ranking Minority Member
Mark Sanford, South Carolina         Carolyn B. Maloney, New York
Thomas Massie, Kentucky              Eleanor Holmes Norton, District of 
Ron DeSantis, Florida                    Columbia
Dennis A. Ross, Florida              Wm. Lacy Clay, Missouri
Rod Blum, Iowa                       Brenda L. Lawrence, Michigan
                                     Bonnie Watson Coleman, New Jersey
                                 ------                                

     Subcommittee on HealthCare, Benefits, and Administrative Rules

                       Jim Jordan, Ohio, Chairman
Mark Walker, North Carolina, Vice    Raja Krishnamoorthi, Illinois, 
    Chair                                Ranking Minority Member
Darrell E. Issa, California          Jim Cooper, Tennessee
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Scott DesJarlais, Tennessee              Columbia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Glenn Grothman, Wisconsin            Bonnie Watson Coleman, New Jersey
Paul Mitchell, Michigan              Stacey E. Plaskett, Virgin Islands
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 24, 2017.................................     1

                               WITNESSES
                                PANEL I:

Ms. Joo Y. Chung, Director of Oversight and Compliance, Office of 
  the Deputy Chief Management Officer, Department of Defense
    Oral Statement...............................................     3
    Written Statement............................................     5
Mr. Giancarlo Brizzi, Principal Deputy Associate Administrator, 
  Office of Government-wide Policy, General Services 
  Administration
    Oral Statement...............................................    11
    Written Statement............................................    13
Dr. James C. Owens, Acting General Counsel, Department of 
  Transportation
    Oral Statement...............................................    17
    Written Statement............................................    19

                               PANEL II:

Mr. Jitinder Kohli, Managing Director, Deloitte Consulting
    Oral Statement...............................................    48
    Written Statement............................................    50
Ms. Diane Katz, Senior Research Fellow for Regulatory Policy, The 
  Heritage Foundation
    Oral Statement...............................................    53
    Written Statement............................................    55
Mr. James Goodwin, Senior Policy Analyst, Center for Progressive 
  Reform
    Oral Statement...............................................    67
    Written Statement............................................    69
Mr. Clyde Wayne Crews, Vice President for Policy, Competitive 
  Enterprise Institute
    Oral Statement...............................................    86
    Written Statement............................................    88

 
                 REGULATORY REFORM TASK FORCES CHECK-IN

                              ----------                              


                       Tuesday, October 24, 2017

                  House of Representatives,
 Subcommittee on Government Operations, joint with 
     the Subcommittee on Healthcare, Benefits, and 
                               Administrative Rules
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Mark Meadows 
[chairman of the subcommittee on Government Operations] 
presiding.
    Present: Representatives Meadows, Jordan, Hice, Sanford, 
Massie, DesJarlais, Grothman, Mitchell, Blum, Krishnamoorthi, 
Maloney, Norton, Kelly, Lawrence, and Plaskett.
    Also present: Representative Palmer.
    Mr. Meadows. The Subcommittee on Government Operations and 
the Subcommittee on Healthcare Benefits and Administrative 
Rules will come to order. And, without objection, the chair is 
authorized to declare a recess at any time.
    It is not every day that we get to hold hearings and 
highlight good news about Federal regulations. Certainly, in 
July, the administration announced in the course of just 5 
months, Federal Government was able to achieve a reduction in 
the net regulatory cost. Bravo. While still issuing new 
regulations, this administration actually has saved $22 
million, and I would like to reiterate, $22 million American 
taxpayer dollars, over this course.
    And to put that in abstract terms, at the end of the Obama 
administration, it would have taken someone 3 years and 177 
days to read through the entire Code of Federal Regulations. As 
of today, that number has been reduced to 2 years and 217 days. 
This amounts to an over 25 percent decrease in the size of the 
CFR.
    Now, this type of progress is shrinking the Federal 
regulations, is really unheard of. And it is thanks to the 
President's regulatory reform agenda. In January, President 
Trump issued an Executive Order 13771, which established a one 
in, two out, process where agencies must repeal two regulations 
for every new regulation that the agency issues.
    The order also directed the agencies that they must achieve 
a net regulatory cost of zero in the fiscal year 2017. By all 
accounts, the agencies will continue to surpass this goal. And, 
in February, President Trump issued a second Executive Order 
that provided a process by which the agencies would implement 
the one in, two out, requirement. The Executive Order 13777 
requires each agency to designate a Regulatory Reform officer, 
and to implement regulatory reforms at their agency, and to 
establish a Regulatory Reform Task Force to review the agency's 
regulations to determine whether they should be repealed or 
replaced.
    Now, in September, I joined leadership from this committee 
and the House Judiciary Committee to request briefings from 24 
agencies on the work of their task force. The results from 
these briefings are indeed impressive. Those agencies have 
begun comprehensive reviews, not only for their regulations, 
but guidance documents, policies, information collections, and 
other written materials that impose burdens on the public.
    Many agencies have already started to clean house by 
starting the process to repeal and amend regulations. And this 
kind of kick in the pants change-out our out of control 
regulatory footprint was badly needed. The committee will be 
hearing today from three of those agencies that 
enthusiastically embrace this effort and have developed a 
strong and effective task force.
    We look forward to you sharing some of your best practices 
with the committee today, and others seeking to do the same in 
their agencies.
    We will also hear from a panel of regulatory experts to 
understand how these changes have been seen in unprecedented 
levels of regulatory relief and what the process means for the 
future of the Federal regulatory state.
    I look forward to working with my colleagues on both sides 
of the aisle to consider how we can support and improve upon 
this effort. I'd like to thank each of you for being here today 
as witnesses, and for your valuable work on this particular 
area. We look forward to hearing from you and seeing where this 
work takes us.
    We are waiting on the ranking member at this particular 
point, so what I would do is--we will go ahead and actually 
swear in our witnesses, if we could, at this point.
    All right. So I would first like Ms. Joo Chung, the 
Director of Oversight and Compliance in the Office of the 
Deputy Chief Management Officer at the Department of Defense. 
Welcome.
    Mr. Giancarlo Brizzi, is that right? Oh, man, I get an A 
for today. The Principal Deputy Associate Administrator at the 
Office of Government-wide Policy at the General Services 
Administration.
    And the easiest name out there, Dr. James Owens, the Acting 
General Counsel at the Department of Transportation.
    Pursuant to committee rules, we ask that all witnesses be 
sworn in before they testify. So if you would please rise and 
raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth.
    All right. Thank you. Please be seated, and let the record 
reflect that all witnesses answered in the affirmative.
    In order to allow time for discussion. We would ask that 
your oral testimony please be limited to 5 minutes, but your 
entire written statement will be made part of the record. And, 
as a reminder, there is kind of a clock in front of you there, 
and so if it comes out with a big hammer, that means stop. And 
we also will remind you, there's a red button, so if you'll 
press that so we can hear you and we can take the notes 
accordingly.
    So, Ms. Chung, we will recognize you for 5 minutes.

                            PANEL I:

                       WITNESS STATEMENTS

                     STATEMENT OF JOO CHUNG

    Ms. Chung. Thank you. Good morning, Chairman Meadows, 
Chairman Jordan, Ranking Member Connolly, Ranking Member 
Krishnamoorthi, and members of the sub-committees. Thank you 
for this opportunity to provide information about the 
Department of Defense's regulatory reform task force and DOD's 
regulatory reform efforts under Executive Order 1377 and 13771.
    My name is Joo Chung, and I'm the Director of Oversight and 
Compliance in the Office of the Deputy Chief Management Officer 
at the Department of Defense. With our regulatory reform 
efforts, the Department is committed to more faithfully hearing 
to the regulatory principles that Federal agencies should 
promulgate only those regulations that are required or 
necessary, and that do not unduly burden the American people.
    On April 20, 2017, the Department of Defense established 
its regulatory reform task force, and I was designated as its 
regulatory reform officer. The task force was established to 
conduct a comprehensive retrospective review of all of its 716 
existing codified regulations, including 350 defense Federal 
acquisition regulation supplement clauses and provisions to 
make recommendations for the Secretary on whether they should 
be repealed, replaced or modified, in accordance with law.
    The DOD task force is composed of senior leaders, and there 
are three subgroups that have been established under the task 
force to aid in the review of the defense Federal accusation 
regulation clauses and provisions, the regulations under the 
Army Corps of Engineers, and the regulations under the Defense 
Health Agency TRICARE Rules.
    The task force's efforts can be divided into three phases. 
First, the establishment. Second, the review and 
recommendations of the rules by the task force. And, third, the 
implementation and sustainment of the reform efforts. In order 
to review all 716 codified regulations at a steady and 
actionable rate, the task force established a biweekly schedule 
of a review with a goal of concluding its review by the end of 
2018.
    At the outset, the task force established scheduled reviews 
by topic in order to evaluate regulations for consolidation and 
to eliminate unnecessary, outdated, or ineffective rules, which 
is a priority set forth in Executive Order 1377. The task force 
has sent two reports to the Secretary, one on May 24, and one 
on September 30. At the time of the second progress report, the 
task force had reviewed 120 regulations and 19 defense Federal 
acquisition regulation supplement clauses.
    So far, the Department has identified approximately over 
$10 million in savings, and has identified 88 rules that it may 
be able to repeal, subject to final review by the Office of 
Management and Budget.
    Most of the task force's recommendations thus far have been 
to eliminate or modify unnecessary, outdated, or ineffective 
regulations, and several reviews have resulted in 
recommendations to consolidate rules into a single DOD level 
rule, which will provide the public with one governing unifying 
regulation and consistent application of rules on the public.
    To provide an opportunity for public engagement, the task 
force published notices for comment, being reviewed by the task 
force and the three subgroups, and has updated its public 
facing website to provide additional transparency.
    DOD understands that a key component of the regulatory 
reform efforts is the implementation and sustainment efforts. 
To that end, the Department's components have already started 
the implementation phase of those recommendations that have 
been approved, and the task force is closely tracking those 
regulatory actions. Currently, the task force has reviewed 17 
percent of its codified regulations, and we are on track to 
meet our goal to review all of the codified regulations by the 
end of 2018.
    Mr. Chairman, regulatory reform is a part of the 
Secretary's overall reform strategy. And DOD believes that the 
deregulatory actions and cost savings of our reform efforts 
will help reduce unnecessary burdens on the public and promote 
agency accountability.
    I thank the Chairman, ranking members, and the 
subcommittees, for this opportunity to discuss the regulatory 
reform efforts, and I'm happy to take any further questions. 
Thank you.
    [Prepared statement of Ms. Chung follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you, Ms. Chung.
    Mr. Brizzi, you're recognized for 5 minutes.


                 STATEMENT OF GIANCARLO BRIZZI

    Mr. Brizzi. Chairman Meadows, Chairman Jordan, Ranking 
Member Connolly, Ranking Member Krishnamoorthi, and members of 
the subcommittees, it is a pleasure to you appear before you 
today to discuss GSA's regulatory reform task force and 
regulatory reform activities, in accordance with the Executive 
Order 13771, reducing regulation and controlling regulatory 
costs. And Executive Order 13777, enforcing the regulatory 
reform agenda.
    My name is Giancarlo Brizzi and I am the General Services 
Administration's Principal Deputy Associate Administrator in 
the Office of Government-wide Policy. As one of the Federal 
Government's central management agencies, GSA strives, through 
its regulations, to provide a policy framework that affords 
agencies the flexibility to accomplish their missions in the 
most effective manner while adhering to laws, executive orders, 
government-wide memoranda, and other applicable requirements, 
and sound management practices.
    GSA accomplishes this through four comprehensive 
regulations. The Federal property management regulation, the 
Federal management regulation, the Federal travel regulation, 
and the GSA acquisition regulation. Building on the intent and 
spirit of the executives orders, GSA expanded the scope of its 
review to include nonregulatory policies and practices. This 
provides an opportunity to review GSA's day-to-day work 
activities that will lead to better service for our customer 
agencies, and ultimately the American people.
    GSA is fully committed to complying with Executive Order 
13771, and is currently pursuing a number of deregulatory 
actions that will reduce the burden on vendors doing business 
with the Government. EO 13777 required GSA to appoint a 
regulatory reform officer, establish a regulatory reform task 
force, and evaluate existing regulations and make 
recommendations to the agency head regarding the repeal, 
replacement, and modification.
    Accordingly, GSA formally established its regulatory reform 
task force, comprised of GSA's regulatory reform officer, 
regulatory policy officer, senior procurement executive, and 
two operational subject matter experts. It was important that 
GSA's task force have both policy and operational perspectives 
as it reviewed our regulations, internal policies and 
practices.
    GSA's regulatory reform task force established four working 
groups consisting of subject matter experts to review 
regulatory and nonregulatory policies and practices that will 
result in recommending proposals in alignment with the 
objectives of EO 13777.
    GSA's task force working groups are organized around the 
agency's primary functions and guidelines or regulations. The 
working group's solicited reform proposals within the agency in 
the case of travel from 17 other Federal agencies that 
volunteered to contribute to the review. To ensure public 
engagement, each of the four working groups published a notice 
in the Federal Register to solicit reform proposals from the 
public. These activities have generated over 2000 regulatory 
reform comments, including nearly 1800 proposals generated by 
GSA's internal working groups, and input from other Federal 
agencies.
    Examples of regulatory reform proposals currently under 
review are being pursued, include making it easier for vendors 
to do business with GSA. More specifically, GSA is looking for 
ways to remove outdated requirements in the GSA acquisition 
regulation that require contractors to submit multiple reports 
or redundant information. Other proposals under consideration 
are nonregulatory but important nonetheless. Include making 
regulations more accessible to users on mobile devices or 
simplifying internal forms.
    We are optimistic that regulatory and nonregulatory 
efforts, such as these, will, in the aggregate, have a 
significant impact on improving GSA's regulatory and 
operational landscape. After the working groups finish their 
initial reviews, they may seek clarifications from the 
submitters to ensure full understanding, and will ultimately 
make recommendations to the task force.
    The task force will then consider the recommendation, 
consult with necessary internal/external advisers, and then 
will make a formal recommendation to the GSA administrator. I'm 
grateful for the opportunity to update the subcommittees on 
GSA's regulatory reform task force, and look forward to working 
with the committee and subcommittees as GSA continues its 
efforts.
    Thank you for your time today, and I welcome any questions.
    [Prepared statement of Mr. Brizzi follows:]
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you. Dr. Owens, you're recognized for 5 
minutes.


                    STATEMENT OF JAMES OWENS

    Mr. Owens. Good morning, Chairman Meadows, Chairman Jordan, 
Ranking Member Connolly, Ranking Member Krishnamoorthi, and 
members of the sub-committees. I am James Owens, Acting General 
Counsel of the Department of Transportation. I am grateful for 
the opportunity to present to you the Department's progress on 
regulatory reform under Secretary Chao's leadership.
    DOT has one of the largest rulemaking portfolios in the 
Federal Government. To carry out its responsibilities, the 
Department embraces a regulatory philosophy that emphasizes 
transparency, stakeholder engagement, and regulatory restraint. 
Our goal is to allow the public to understand how we make 
decisions, which includes being transparent in the way we 
measure the risks, costs, and benefits of engaging in in or 
deciding not to engage in a particular regulatory action.
    The Department also embraces the notion that there should 
be no more regulations than necessary. We emphasize 
consideration of nonregulatory solutions and have rigorous 
processes in place for continual reassessment of existing 
regulations.
    The executive orders issued by President Trump at the 
beginning of this administration have been instrumental in 
helping the Department achieve regulatory reform goals. In 
response to the executive orders, the Department formed a 
regulatory reform task force. Our task force consists of two 
components, a working group that meets with each of our 
operating administrations once per month, and a leadership 
council. Senior career and noncareer officials are members of 
the task force.
    In carrying out its work, the task force is guided by three 
principles. First, reduce the unnecessary regulatory burdens on 
the public without compromising safety. Second, further stretch 
taxpayer dollars by streamlining the infrastructure permitting 
process. And, third, enable innovation by removing unnecessary 
regulatory barriers to transformative technologies.
    Through our ongoing review and revision of DOT regulations, 
we have been able to save the American public significant time 
and money without reducing the safety of our Nation's 
transportation system. DOT rules issued in fiscal year 2016 
under the previous administration imposed an estimated $3.2 
billion in annualized costs. In contrast, rules issued under 
this administration in fiscal year 2017 resulted in 
approximately $21.9 million in annualized cost savings.
    In addition, rules anticipated to be issued in 2018 are 
currently projected to yield substantially increased annualized 
cost savings. In effect, we hope not only to continue to save 
the American taxpayers money, but to save them more money and 
faster. Approximately 12 percent of DOT rulemaking actions 
issued in the previous administration were deregulatory. We 
expect that in fiscal year 2018, the number of deregulatory 
actions will increase to approximately half of all DOT 
rulemakings.
    One of the Department's goals in reducing regulatory burden 
is to streamline the permitting process to further stretch 
taxpayer dollars by enabling faster, better, and more efficient 
infrastructure development. The Department has sought 
stakeholder input to assist in this effort. And in June 2017, 
we published a request for public comment asking for input to 
help identify obstacles to infrastructure projects. In 
response, we received over 200 comments containing over 1,000 
ideas, and we are currently reviewing those ideas.
    Other steps the Department is taking to expedite project 
delivery, included proposal to encourage public private 
partnership in transit project delivery, and the issuance of 
updated guidance to help streamline environmental reviews. 
Another of the Department's goals in reducing regulatory burden 
is to enable innovations that will transform transportation. We 
believe that the transportation of the future will be better, 
faster, cheaper, and safer than it is today. And we are eager 
to do what we can to make that a reality.
    This administration is committed to enabling innovative and 
new uses of transportation technology, whether that involves 
automated vehicles, unmanned aircraft systems, or other 
emerging technologies. Although the Department has made great 
progress in implementing the administration's regulatory reform 
agenda, our work continues, and we anticipate continued 
deregulatory progress in fiscal year 2018, including plans to 
consider potential burdens caused by nonbinding agency guidance 
documents.
    Thank you, again, for the opportunity to discuss with you 
the Department's regulatory reform agenda. I would be pleased 
to answer any questions you may have.
    [Prepared statement of Mr. Owens follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you, Dr. Owens. Thank all of you for 
your insightful testimony here. We're going to--since we went 
ahead and started, I'm going to go ahead and recognize our 
ranking members for their opening statements. I first recognize 
the gentleman from Illinois, Mr. Krishnamoorthi, for his 
opening statement.
    Mr. Krishnamoorthi. Thank you, Chairman Jordan, and 
Chairman Meadows, for convening this hearing. I'd also like to 
thank Ranking Member Connolly, who couldn't be here, but he has 
displayed incredible leadership on this committee as well. I 
would like to commend all our witnesses for participating 
today. So thank you very much.
    There's an old saying that there is no Republican or 
Democratic way to pick up the trash or fill a pothole. The only 
thing that matters is that you deliver for your constituents. I 
think that is a good mindset to have as we look to improve 
efficiencies and cut unnecessary regulations. This shouldn't be 
done with any partisan preconceptions, but rather with a 
dispassionate and a rational mindset.
    In my career as a small businessman, we made our business 
decisions based on facts and numbers. If a product wasn't 
selling, we would investigate why. If we had to change our 
products or services, we did so because our research told us 
that what we hadn't been doing--what we had been doing wasn't 
working. We did this because we had a clear goal in mind. We 
wanted to sell the best products and services, and keep making 
money for our shareholders.
    No matter how brilliant I thought my ideas were, I would be 
letting down my partners and our customers if I insisted on 
selling a product that our customers didn't want to buy. I 
strive to bring that mindset to Congress as well.
    If a policy or a change in regulation moves us toward what 
my constituents sent me here to do, I'd be happy to support it. 
I don't think many people in Schaumburg, Illinois, my home 
town, expected that my first major legislation to be co-lead by 
a Republican in rural Pennsylvania, named Representative 
Thompson. But that's what we had to do because we had a shared 
goal of improving career and technical education.
    That is why today I'm particularly troubled by recent 
administrative moves to undermine, for instance, health 
protections and the coverage that millions of Americans have 
come to depend on. The Department of Health and Human Services 
recently decided to cut its open enrollment period in half 
because it appeared to be a move that was based on ideology, 
not practical circumstances.
    Shutting down the website on the first day of enrollment 
period and cutting down the enrollment period in half would 
only serve to hurt our customers of that service, not help 
them.
    So, today, I hope that the testimony that we hear shows 
that agencies are making decisions based on facts and not 
ideology. I hope we hear the testimony that you provide today 
showed that agencies are devising effective regulation, not 
deregulation at any cost.
    I'm very grateful to the chairman for calling this hearing 
so we can further investigate the reasons behind administrative 
actions and the policy goals that they serve, and provide 
comment and insight on how agencies can more effectively serve 
the American people.
    I look forward to discussing this more with the witnesses. 
Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentleman. The chair recognize the 
gentlewoman from the great state of Illinois, and my dear 
friend, Ms. Kelly, for her opening remarks.
    Ms. Kelly. Thank you, Mr. Chairman, for holding this 
hearing to example the agency regulatory reform task force as 
established by the current administration under Executive Order 
13777, and to evaluate implementation of Executive Order 13771, 
which requires agencies to propose the repeal of two 
regulations in order to issue a new rule. And thank you to the 
witnesses.
    Since January 20, this Congress and the administration have 
overturned, delayed, or repealed dozen of regulations that were 
issued during the Obama administration. Under this 
administration, employees have fewer requirements to protect 
their employees from exposure to toxic chemicals, airlines can 
be more opaque regarding baggage fees, and people with mental 
disabilities can more readily purchase guns. Important rules to 
ensure clean air and water are being rolled back.
    All of this is being done under the guise of cost savings, 
but I fear that it is being done without considering the impact 
on all Americans. To get an overview of how Executive Order 
13777 and 13771 are being implemented, and what direction the 
White House or the Office of Management and Budget has given to 
agencies to execute these two executive orders, the committee 
should hear from Director Mulvaney, a former member of this 
committee, and Office of Information and Regulatory Affairs, 
Administrator Neomi Rao.
    It is critical that we understand that overarching 
strategies to this administrations's regulatory agenda, 
considering the aggressive steps this administration has taken 
to repeal, or otherwise halt rules that were carefully crafted 
under the previous administration. The administration's 
regulatory task forces were established ostensibly to identify 
costly and necessary regulations that can be repealed. The 
administration has not provided Congress with membership lists 
for the task forces, and we are forced to glean what 
information we can from public reporting.
    These task forces appear to be filled with industry 
lobbyists acting on behalf of special interests, and agencies 
are moving to repeal regulations that benefit industry with 
little regard to health and safety of the public. It is also 
unclear with whom these task forces are meeting. Whether they 
are balancing the interests of industry with those of consumers 
and other parties, and which rules these task forces have 
recommended for repeal.
    We do not know which, if any, rules have been repealed that 
is a suggestion of the task forces. The opaqueness of these 
task forces from their members to their actions is of great 
concern. Further, Congress has no way of knowing to what extent 
members of the task forces are subject to conflicts of interest 
laws and executive orders, if at all. And if any ethics waivers 
have been issued to the these members.
    I'm not taking a second look--I am not against taking--
excuse me--a second look at the regulations. There may be some 
that need to be repealed and some that need to be strengthened. 
However, any regulatory action undertaken by agencies must be 
done in a transparent manner with public input from all 
stakeholders, not just those who would benefit from a 
regulatory repeal. Congress must be assured agencies are not 
repealing existing regulations at a cost of the health and 
well-being of Americans.
    I look forward to hearing from our witnesses today, and 
thank the chairman, again, for holding this important oversight 
hearing.
    Mr. Meadows. I thank the gentlewoman. Again, as we back and 
forth, we ask that, members, if you will just be very cognizant 
of the clock. And I'll be gentle on my gavel, but I want to 
make sure that we get everybody in to ask questions.
    So the chair recognizes the gentleman from Michigan, Mr. 
Mitchell for 5 minutes.
    Mr. Mitchell. Thank you, Mr. Chair. And there you go, any 
hope of a bipartisan committee meeting just went by the 
wayside. Let me ask you for a brief response, if I can. Do any 
of you believe that the executive orders has in some way 
hindered your ability to effectively protect the American 
people?
    Mr. Brizzi. No, sir.
    Mr. Mitchell. Dr. Owens?
    Mr. Owens. No, sir.
    Mr. Mitchell. Ms. Chung?
    Ms. Chung. No, sir.
    Mr. Mitchell. So, to be clear, you don't believe the 
executive order to clean up outdated, duplicative regulations 
that somehow put the American people at massive risk of some 
form? We're good on that point right? At this point?
    The task forces are required to review regulations on a 
variety of broad categories, including eliminate jobs--or job 
creation, to look at the cost benefit analysis, deal with 
duplicative regulations. Have your agencies created additional 
criteria by which you look at what regulations you're going to 
consider? How else are you analyzing those?
    Mr. Owens. We have not created new additional 
considerations. We continue to look at the traditional cost 
benefit analysis in determining which rules to move forward 
with and which rules not to move forward with.
    Mr. Mitchell. Mr. Brizzi.
    Mr. Brizzi. Sir, we have not changed the criteria, though 
we have added new criteria for which we look at, not just on 
regulations, we are doing a much more comprehensive review to 
include internal policies and practices. We want to make sure 
that we can target things that have a high impact with relative 
ease in implementation. So there are a number of factors that 
we look at.
    Mr. Mitchell. You refer to high impact, Mr. Brizzi, 
define--give a definition of high impact, please.
    Mr. Brizzi. Yes, sir. Those items that could have a large 
influence on the, either constituents, whether it's small 
businesses or large businesses doing business with the 
Government, making their life easier in terms of doing business 
with us, or it could be internal management regulations that 
have an impact on Federal employees who abide by those.
    Mr. Mitchell. Ms. Chung.
    Ms. Chung. We have also not changed our criteria. We've 
looked at all of our regulations under the existing cost 
benefit analysis that is required for all regulatory actions.
    Mr. Mitchell. Thank you. One of the concerns that has 
arisen from some of the comments already today is that somehow 
the review of these regulations has been turned over to 
political ideologs. I'd ask each of you, maybe starting with 
Ms. Chung, have career staff been directly engaged in this 
process, and how extensively, please?
    Ms. Chung. Our task--the DOD task force is primarily 
composed of career staff. I'm a career official. And we're 
primarily, a majority, are composed of career officials.
    Mr. Mitchell. Let me ask you, Ms. Chung, in selecting 
people for the task force, was there some political ideology to 
determine who would be selected in your Department?
    Ms. Chung. No, sir. We decided to take a comprehensive 
approach to look at all of our regulations, so we decided to, 
naturally, look to appointing people on the task force that had 
the most regulations.
    Mr. Mitchell. I would hope----
    Ms. Chung. That we have members from the three departments, 
members from the Under Secretary that have the most 
regulations, and general counsel, of course. We have a working 
level group as well that--composed of subject matter experts 
that review the regulations before they go to the task force. 
So that's how we've conducted our processes, sir.
    Mr. Mitchell. Mr. Brizzi.
    Mr. Brizzi. Yes, sir. The committee or the regulatory 
reform task force that GSA is comprised of five members, three 
of which are career employees, two are political. But most of 
the work and review is being conducted by working groups 
comprised of career individuals or subject matter experts in 
that particular field or regulation that they are reviewing.
    Mr. Mitchell. And Dr. Owens.
    Mr. Owens. Our task force includes both career and 
noncareer officials. Our working group consists of senior 
career experts, including the assistant general counsel for 
regulations, the executive director for policy, and the career 
deputy general counsel. And then we work very closely with 
career experts in the different operating administrations as 
part of the general review process going forward.
    Mr. Mitchell. Dr. Owens, in terms of your task force, you 
didn't give me much of a breakdown in terms of career folks 
versus political appointees. Can you give me an estimate what 
that is?
    Mr. Owens. So on the working group we have four noncareer 
appointees and three career appointees. We additionally have a 
leadership group that is comprised of the regulatory reform 
officer and other senior political leadership, but that is more 
of a review body that receives recommendations from the working 
group, and ultimately from career staff.
    Mr. Mitchell. So it's an accurate description, in your 
opinion, that much of the review of these regulations is driven 
by long term career staff, they are subject matter experts and 
know this better than a whole lot of us political folks?
    Mr. Owens. Absolutely. We could not do our jobs without 
their career experts and their professional assistance.
    Mr. Mitchell. Ms. Chung?
    Ms. Chung. Yes, absolutely. I would support that statement.
    Mr. Mitchell. Mr. Brizzi?
    Mr. Brizzi. Yes, sir.
    Mr. Mitchell. Thank you, sir. I yield back.
    Mr. Meadows. Thank you. The chair recognizes the gentleman 
from Illinois, Mr. Krishnamoorthi, for 5 minutes.
    Mr. Krishnamoorthi. Thank you, Mr. Chairman. I'm concerned 
that agencies are rolling back regulation documents, not 
necessarily based on evidence, but based on a political 
agenda--well without full information.
    Just last week the Department of Education announced it was 
repealing 72 guidance documents related to special education. 
These documents do everything from informing States on what 
processes they are to follow to receive grant funding, to 
ensuring that students with disabilities are included in all 
educational activities.
    Some of these guidance documents have been on the books as 
far back as 1980. While the Department of Education put out a 
general request for comment on its regulatory reform plans, 
disability advocates had no opportunity to comment on the 
repeal of these same guidance documents. The Department, 
unfortunately, didn't have all the facts from everyone 
affected. I would like to ask each of our witnesses here today 
a similar question.
    Ms. Chung, is the Department of Defense repealing or 
considering the repeal of any guidance documents, and if so, 
are you going to issue a notice for comment in the Federal 
Register to allow all interested parties to comment if you are 
planning to repeal any guidance documents?
    Ms. Chung. Sir, while reviewing internal guidance documents 
is not a part of this, DOD's regulatory task force purview. The 
Department is considering those, and I'm happy to take that 
back for the record and provide you additional information on 
the process.
    Mr. Krishnamoorthi. Yes, thank you, Ms. Chung. Mr. Brizzi, 
is the GSA repealing or considering the repeal of any guidance 
documents?
    Mr. Brizzi. I'm not aware of any repeal of guidance 
documents, though, anything that were to come to consideration 
before the task force would be considered, discussed. And we 
would engage with stakeholders, whether it's other Federal 
agencies, or industry groups as to the perspective or impact 
they may have on those individuals.
    Mr. Krishnamoorthi. So you would issue a notice for comment 
in the Federal Register to allow all interested parties to 
comment if you intend to repeal any guidance documents?
    Mr. Brizzi. It would either be through a Federal Register 
notice or some other means, whether it's industry day or some 
type of a public engagement with those individuals. I'm not 
sure whether it would be a Federal Register notice, but some 
type of engagement.
    Mr. Krishnamoorthi. Dr. Owens, similar questions. Is the 
Department of Transportation repealing or considering the 
repeal of any guidance documents, sir?
    Mr. Owens. We're at the very beginning of our review of 
guidance documents. We want to be sure that all guidance 
documents that have been issued by the Department or will be 
issued in the future, are in compliance with statute, including 
the Administrative Procedure Act. We want to make sure that 
we're not creating new law through guidance documents.
    We also are undertaking a review of our guidance documents, 
and where we determine that the guidance document may stray 
beyond the legislative requirements, we will put that out for 
notice and comment. We're also ensuring that significant 
guidance going forward will be put out for notice and comment 
before the--before it would come into effect.
    Mr. Krishnamoorthi. Got it. So if you do intend to repeal 
any of the guidance documents, you will put it out for notice 
and comment in the Federal Register?
    Mr. Owens. That would be my expectation, in most instances. 
There are obviously minor guidance documents, such as changes 
of forms and the like, that would not rise to the level of 
going up for notice and comment. But certainly anything that is 
significant, we would expect to seek public input.
    Mr. Krishnamoorthi. I would like to--thank you. I would 
like to ensure that if there is a repeal of any guidance 
documents that you do put it out for notice and comment because 
that is so important for stakeholders to have a say in your 
intended action. I have another similar question.
    Ms. Chung, what is the Department of Defense doing to 
ensure the public has an opportunity to comment on changes to 
regulations undertaken by your regulatory reform task force?
    Ms. Chung. Sir, the Department has published notices for 
comment for all of the reviews that the task force is 
conducting. We have received--and the published notices for 
comments for the subgroups with regulations that we're 
reviewing. For two of our subgroups we have received many 
comments, for example, in the regulations for the Army Corps of 
Engineers, we have already received over 1,000 comments, and 
we're currently reviewing all those comments for consideration.
    In addition, we have published--we've updated our website 
on our regulatory reform website, which includes a frequently 
asked questions section. We have our most recent reports to the 
Secretary published. We have our membership lists. We have our 
various documents explaining our process and our terms of 
references on that website.
    Mr. Krishnamoorthi. Got it. Mr. Brizzi, can you answer the 
same questions, and then Dr. Owens.
    Mr. Brizzi. Yes. We have published Federal Register notices 
seeking comments on our four regulations. We have received a 
number of those comments and are going through the review 
process. Should it result in any type of change to a particular 
regulation, we would go through the regulatory process and do a 
Federal Register notice for public comment.
    Mr. Krishnamoorthi. Got it. Finally, Dr. Owens.
    Mr. Owens. So over the summer we published a Federal 
Register notice soliciting public comment on infrastructure 
improvement. We received over 1,000 ideas pursuant to that 
solicitation. A couple of weeks ago we put out another Federal 
Register notice soliciting public comment on regulatory reform, 
generally. And we are looking forward to receiving those 
comments.
    In addition, any substantive action the Department takes on 
rulemaking will go out for notice and comment pursuant to the 
APA.
    Mr. Krishnamoorthi. Thank you very much.
    Mr. Meadows. The chair recognizes the gentleman from 
Georgia, Mr. Hice, 5 minutes.
    Mr. Hice. Thank you very much, Mr. Chairman. And thanks to 
our panel for being here and each of you for your leadership 
with these executive orders.
    I can only imagine in receiving an executive order and 
beginning to implement that, you're going to have some people 
within the agencies rather excited to update some regulations 
and probably some not so excited about it. So just kind of 
overall, have you received any push-back from career staff at 
your various agencies?
    Ms. Chung. We have not at DOD. I think what has resonated 
very nicely with the DOD workforce is explaining why these 
regulatory reform efforts should be undertaken. And so going 
back to the regulatory principles and the philosophy has really 
resonated with the workforce. So we have not received any push-
back.
    Mr. Brizzi. GSA, we have not received any push-back from 
either career or anybody else we have engaged with. In fact, if 
anything, they see this as an opportunity not to only review 
the regulations that we have, but more importantly, looking at 
all of our day-to-day activities, our guidance documents, and 
that's what they're really excited about. Those are the things 
that impact them on a day-to-day basis and an ability to voice 
their opinions and possibly achieve change and making their 
lives better.
    Mr. Hice. Okay.
    Mr. Owens. At DOT we have been impressed by our career 
staff, they have been extremely supportive of our efforts. It's 
not only our efforts, it's their efforts as well. And without 
their support, without their expert guidance, we would not be 
able to move forward with this process
    Mr. Hice. Well, I am impressed with it as well, with each 
of your answers there. That's pretty fascinating. So with 
regulations--with being duplicative or burdensome or whatever 
it may be, you're receiving no push-back. Why? In one or two 
sentences, why is it that your agencies are excited to proceed 
with doing away with these?
    We'll just go down the line again. Ms. Chung.
    Ms. Chung. I'll be honest. I think it's very satisfying at 
the Department to unify certain policies and requirements under 
one regulation. And it's--I think the workforce is satisfied in 
that unity that this brings.
    Mr. Brizzi. At GSA, on the onset, we took a lot of time to 
consider the process of which we would go through the 
regulatory review. And we approached it in a manner that 
allowed input from not only the employees that are dealing with 
it day-to-day, but also engaging other agencies, which had 
never been done before. And that's what has the employees 
excited, they're not just looking at it from their own input 
but from the stakeholder perspective as well. Again, that's 
what has them excited.
    Mr. Owens. At Transportation our career experts have a long 
tradition, a long culture of pursuing cost benefit analysis, of 
seeking a data-driven process to improve all of our regs, to 
improve safety. And so as we have been working with them and 
they understand that we are working through and following sound 
science in all of our analysis, we have extreme support from 
them.
    Mr. Hice. Well, thank you. And I appreciate--you know, it's 
the stakeholders out there that are living under these 
regulations, and it's encouraging to me to have some government 
agencies excited about helping people who are just suffocating 
under so much regulatory burdens. So let's just continue that--
you guys are doing great with this, let's continue. As far as 
the transparency to the public, are your changes online or are 
there plans to put them online for the public to see?
    Ms. Chung. Yes, sir. Our regulatory reform efforts are on 
our website--our regulatory reform website. And our 
recommendations to the Secretary, our reports are on the 
website. Our process of how we conduct our reviews are on the 
website.
    Mr. Brizzi. From a transparency perspective, the Federal 
Register notices, the comments that we received are public and 
available. Additionally, the transparency that we have 
undertaken is working with the agencies. Those agencies are 
impacted by our internal management regulations, and so they 
are part of the process. They're seeing the recommendations, 
they're going through them and they're doing the analysis with 
us, and then putting forward recommendations for change.
    Mr. Hice. What about the general public?
    Mr. Brizzi. We're also engaging stakeholders, such as small 
businesses and large businesses, those who do business with the 
Government, such as reverse industry day where they came in, 
walked us through what they're doing when we're going through 
the acquisition process. And that input was extremely valuable, 
and us looking at what we're doing, how we could possibly shape 
it to improve it for them.
    Mr. Hice. All right. Mr. Owens.
    Mr. Owens. We value transparency at Transportation. We have 
published our task force reports on the Internet. We also 
publish a monthly Internet report of all of our rulemakings and 
where they stand. We also have continual outreach to external 
stakeholders and to the public. We want to solicit all good 
ideas and we want to make sure the public is engaged in our 
process.
    Mr. Hice. Well, again, thank you very much for what you're 
doing. And I yield back, Mr. Chairman.
    Mr. Meadows. The chair recognizes Ms. Kelly for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chairman. I'm concerned that the 
Executive Order 13771, which requires the repeal of two rules 
for every one rule issued, will impair the health, safety, and 
welfare of the American public. The executive order does not 
apply to, and I quote, ``regulations issued with respect to a 
military function.''
    Ms. Chung, why was this provision added to the executive 
order?
    Ms. Chung. I believe that that is an exception as well in 
the Administrative Procedure Act, and so the executive order 
was following that line of rationale.
    Ms. Kelly. But you don't know the rationale?
    Ms. Chung. It's an exemption under the Administrative 
Procedure Act.
    Ms. Kelly. It seemed that the President did not want to 
impose heavy deregulatory burdens on the military. Ms. Chung, 
is all of the Department of Defense exempted from Executive 
Order 13771, or some--or are some things does--affected by the 
order?
    Ms. Chung. No, the entire Department of Defense's 
activities is not exempted from the executive order. We are--
the regulations that we're reviewing, all of the 716 are 
reviewed under the criteria for 13771. And we work with the 
Office of Management and Budget in identifying significant 
rules under that order.
    Ms. Kelly. Okay. Did the Department of Defense advise the 
President not to apply the executive order to military 
regulations?
    Ms. Chung. To my knowledge, no.
    Ms. Kelly. Had Executive Order 13771 been applied to 
military regulations, what impact would that have had had they 
been applied?
    Ms. Chung. So currently when we look at the rules under 
13771, there could be an exemption that applies to the 
regulation as being exempt as a military function. So some of 
those rules could meet that exemption. As a whole, all of the 
regulations that we're reviewing, they do not wholly meet that 
exemption. So we are working with OMB to determine which rules 
would meet that exemption or which would not.
    Ms. Kelly. Okay. It seems to me that Executive Order 13771 
could have had a serious impact on our military, and similarly, 
could be having a serious impact on regulations which keeps the 
average American safe.
    Mr. Owens, do you think that Executive Order 13771 is 
having or will have an impact on safety regulations the 
Department of Transportation is issuing?
    Mr. Owens. No, ma'am. Safety is our number one priority, 
and our intention is to--in identifying unnecessary regulatory 
burdens, we are looking to remove those burdens without 
compromising safety.
    Ms. Kelly. Thank you. Do you think there would be more 
safety regulations issued by DOT if the executive order did not 
apply to the Department, and just how does--just as how it does 
not apply to the military?
    Mr. Owens. I do not think that there would be more safety 
regulations in the absence of the executive order. Again, we 
take safety extremely seriously. We apply a cost benefit 
analysis to everything we do, which the Department has always 
done. And any time that the safety benefits or the overall 
benefits to society exceed the costs, that is a rulemaking we 
want to engage in.
    Ms. Kelly. Okay. Thank you. And I'm glad to hear that 
safety is number one, because I have concerns that Executive 
Order 13771 is putting Americans in harm's way, and should be 
repealed immediately. Thank you. I yield back.
    Mr. Meadows. The chair recognizes the president of--the 
gentleman from Alabama, Mr. Palmer, which is not on either of 
the subcommittees, but I ask unanimous consent that he be 
allowed to fully participate in today's hearing.
    Without objection, so ordered.
    The chair recognizes Mr. Palmer.
    Mr. Palmer. Thank you, Mr. Chairman. I just have a few 
questions, and some of it is follow-up. But in a broader sense 
of considering some of the reports that have been issued 
showing that regulations cost our economy approximately $1.9 
trillion a year. Some of the feedback I've gotten from private 
sectors that they're dealing with obsolete regulations, they're 
dealing with duplications, and in some cases, contradictions.
    Ms. Chung, is there an effort to take a broader look at the 
regulations to eliminate the obsolete, you know, what I guess 
you could call the low hanging fruit?
    Ms. Chung. Yes, sir. That was the approach that we took at 
the outset is to schedule our reviews by topics in order to 
review regulations that are of similar requirements to identify 
rules that we could consolidate and that we could eliminate, if 
they were outdated. So that was certainly one of the first ways 
that we were looking at the regulations.
    Mr. Palmer. What I found in talking with people is that 
business is not necessarily adverse to regulations. What they 
find problematic is the lack of clarity in some cases. Again, 
I've been told that they're getting contradictory answers. They 
could call one regulator one week and get an answer and, you 
know, a few weeks later call the same agency, different 
regulator and get a different answer. Is that part of the 
process that we want to bring clarity to our regulations?
    Ms. Chung. Yes, sir. Certainly that is within what we want 
to do. One of the goals that we want to achieve in the 
Department is to unify the requirements within our components, 
and that's--for example, we have been looking at components 
that have different regulations on the same topic, and 
consolidating those requirements into one rule so that there is 
one governing rule, and the public understands what that rule 
and requirement is. So certainly that is the effort.
    Mr. Palmer. Mr. Brizzi, if we just kind of simplify this. 
The objective here is not just about saving the economy money, 
it's bringing predictability, it's sensible regulation. Would 
that be a fair way of describing what we're trying to do?
    Mr. Brizzi. Yes, sir. GSA is supporting other internal--or 
other agencies across the Government. We don't like to think of 
it in terms of deregulatory or making new regulations, it's 
about getting the right regulations in place and protecting the 
taxpayer in terms of funds, making sure that we protect 
employees across the Federal Government by understanding what 
it is and how they need to adhere to laws and guiding 
principles from the administrations. So it's about getting the 
right regulations.
    Mr. Palmer. Well, the reason I keep pounding on this, Mr. 
Chairman, is that we're talking about saving the taxpayers 
money, but really what we're talking about are consumers 
because regulatory costs, some people call it a hidden tax. 
It's not a hidden tax, I mean, at least a tax might go to build 
a bridge or a road or fund a school. It's just a hidden cost. 
And, again, the reports indicated that the average household is 
spending about $15,000 per year in regulatory costs that's 
added to their burden, and that's particularly a problem for 
low income families.
    So when we talk about regulatory reform, that's one of the 
things that I think we want to do. We want to make sure that we 
have the right regulations, that these are clearly written so 
that we reduce the amount of burden that's passed on to 
families. That's a primary goal of mine while I'm in Congress 
is to try to bring, to our regulatory regime, clarity, and to 
reduce the burden on families, because I just think it's a 
great idea to, you know, as far as the burden on taxpayers. But 
it's really just an overall cost of living issue that--when we 
have regulations on top of regulations, you lack clarity. Some 
of them are obsolete, Ms. Chung, that is just an unnecessary 
cost.
    And I hope that as we continue to do this that we're not 
compromising public safety, I don't think we are. I think what 
we're doing is we're trying to remove a tremendous burden on 
families.
    Mr. Chairman, I appreciate the opportunity to participate 
in this hearing, and I yield back.
    Mr. Meadows. I thank the gentleman. The chair recognize the 
gentlewoman from Michigan, Mrs. Lawrence for 5 minutes.
    Mrs. Lawrence. Thank you, Mr. Chair. The Department of 
Transportation is tasked with keeping Americans safe on the 
road and the skies, however, I am concerned that the executive 
order will inhibit the permits ability to do that.
    A 2012 highway transportation bill required the Department 
to write a rule about rear seatbelt reminders. This rule would 
alert drivers of individuals in the back seat, such as 
children, are not buckled up. This rule has been delayed and 
not yet implemented. It was supposed to be finalized in 2015 
and it still has not been.
    To put some reality to my concern, in 2016 over 200 
children in Michigan--in Michigan alone--died in car crashes. 
Over 140 of those children were under the age of 10. This 
seatbelt rule could have saved some of their lives.
    Mr. Owens, would it be possible for the Department to 
finalize this rule, given the regulatory budgeting requirement 
in Executive Order 13771?
    Mr. Owens. We are, at DOT, we are committed to completing 
all rulemakings mandated by Congress, and so we will move 
forward with every single rulemaking. In terms of a cost 
analysis--in terms of the cost analysis for the two for one in 
the executive order, that's a different matter that we are 
focused first and foremost on ensuring that we have our 
rulemakings done.
    We will, of course, endeavor to do so in the most cost 
beneficial manner possible so that we can maximize the benefits 
of society and minimize the costs. But I can assure you that 
anything that is a mandatory rulemaking, something that 
Congress has required us to do, we will move forward on.
    Mrs. Lawrence. Where are you with the rear seat regulation? 
Where are you?
    Mr. Owens. I don't have that information in front of me, 
but we can get back to you on that.
    Mrs. Lawrence. So, Mr. Owens, when the Department of 
Transportation task force is undertaking a review of 
regulations, is it looking at ways to improve public safety or 
is it just looking at reducing the regulatory burdens? And my 
concern is that, in your quest, and you've outlined eloquently, 
all three of you. How all hands are on deck, and this is a full 
Department engagement, but yet still we have a mandate from 
Congress that has not been fulfilled.
    So please tell me, is it one or the other, or what is 
happening here to improving safety or reducing the regulatory 
business? And when you answer this, please be honest, because 
my concern when so many of the people from the departments 
come, you'll say what you think will be nice to hear. If you 
don't have the manpower, because I'm concerned, 2015, and we 
still haven't achieved it, and lives are being lost as a result 
of rear seats not being mandated for children and others, but 
yet still you sit here so eloquently and talk about how engaged 
you are in the regulatory reform.
    So please answer that question for me.
    Mr. Owens. Thank you. We are committed to safety, as our 
Secretary has said on many occasions, safety is our number one 
priority at the Department of the Transportation. We are 
committed to moving forward with all safety rules, rules that 
are going to create significant benefits for society.
    We are----
    Mrs. Lawrence. But you have not fulfilled the requirement 
that I'm speaking of?
    Mr. Owens. I can't speak to what occurred in the prior 
administration, but I can tell you that right now, we are 
looking at every one of the rules that has been mandated by 
Congress, and we want to move forward with them, and we're 
conducting the analysis necessary to ensure that we can do so 
in the best possible way.
    Mrs. Lawrence. That's not really answering, Mr. Owens.
    Answer that question. When you're all engaged with the 
regulatory burdens, reducing them, and improving safety, are 
those two different lanes? Are they combined, so you do one or 
the other? And do you have the manpower--I'm asking that 
again--to fulfill this? Because I don't want this rule to 
continue to sit, and you're very excited about looking at 
regulatory business, which if you protect the employees, 
updating regulations, creating efficiency and reducing costs, 
I'm all for that. But I am extremely concerned about safety 
issues, and you not complying in a timely manner.
    Mr. Owens. Thank you. There is no conflict between the EO 
and safety. We are able to pursue both. And I can't speak to 
our manpower resources, but I can say that we do have resources 
to move forward. I certainly share your understanding that 
rulemaking can take, under the APA, can take a very long time. 
But I can assure you that we're moving forward with all of our 
mandatory rulemakings with all the energy we can.
    Mrs. Lawrence. I would think, Mr. Chairman, that while 
we're looking at reducing costs and creating effectiveness, 
effectiveness means timely response to safety concerns and 
clearly mandates that you've already received from Congress. 
Saying it's a long time is not acceptable to me, so that should 
be one of your top priorities, because it does impact safety.
    Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentlewoman. The chair recognizes 
the gentleman from Iowa, Mr. Blum, for 5 minutes.
    Mr. Blum. Thank you, Chairman Meadows. Thank you to our 
panelists for being here today. I appreciate it very much. I am 
a small businessman from the private sector for the last 30 
years of my life, so the private sector feels the brunt of 
overregulation. And that's why these two executive orders from 
the President are exciting to me, and, I know, very, very well-
received in the private sector.
    I have a kind of a philosophical question, I guess, for 
each of you. Why does it take an executive order for our 
agencies to take a regulation, even one, off the books?
    You know, Ronald Reagan often said, ``The closest thing we 
have to eternal life on this planet is a government program or 
a government regulation.'' Why does it take an executive order?
    Ms. Chung. You know, at the Department of Defense, we did 
take on an initiative to conduct a regulatory reform effort 
prior to these executive orders under the prior executive 
orders.
    However, I think that the executive orders do provide--
strengthen agency leadership support and formalizes the process 
that may not exist. So I think it just strengthens leadership 
engagement.
    Mr. Blum. What does that mean, in layman's terms----
    Ms. Chung. So----
    Mr. Blum. --that a small business person in eastern Iowa 
can understand?
    Ms. Chung. While we were----
    Mr. Blum. And I'm being respectful. But I'm not sure what 
you just said.
    Ms. Chung. Okay. So we were conducting a regulatory reform 
initiative looking at our business process on a regulatory 
program, quite honestly, a few years ago, kind of looking----
    Mr. Blum. As a result of an executive order?
    Ms. Chung. As a result of existing requirements, executive 
orders and law.
    When these executive orders were issued, it really 
strengthened the agency leadership and galvanized the workforce 
and formalized the reform effort into a task force.
    So, I think philosophical----
    Mr. Blum. So it takes an executive order to strengthen the 
agency's leadership? I would say that isn't leadership. If it 
takes somebody in the Oval Office to say, ``you shall do 
this,'' that's not leadership. That's just following orders. 
That's being a good foot soldier, correct?
    You see, people in the real world don't understand this; 
why it takes executive orders, why it takes the President of 
the United States to say ``take a regulation off the books.'' 
Is there no incentive to do it?
    Ms. Chung. I mean, we were looking at our regulations to 
see if they were unnecessary and outdated.
    Mr. Blum. Looking is fine, but----
    Ms. Chung. And reviewing them and putting them into 
process. But, yes, sir, you know, it does, sometimes executive 
orders do strengthen the leadership and commitment to it.
    Mr. Blum. Sir?
    Mr. Brizzi. For GSA, we have always been looking at our 
regulations and looking for improvements and ways we can make 
them better, stronger, easier. So we have conducted reviews. 
And, in fact, a lot of various regulations have been updated 
because of those internal reviews.
    I would say particularly with this executive order, it did 
bring a new level of enthusiasm, if you will, and prioritized, 
brought it up to the forefront in terms of reviewing the 
regulations. But I would also add that we kind of approached it 
in a different manner in that we just didn't look at our 
regulations, but also seized upon the opportunity to look at 
our internal procedures, policies, and ways that we can change 
and make it easier.
    Mr. Blum. Is there awareness within government of what 
these--we all want clean air, clean water, all these types of 
things. But is there an awareness within an agency of what this 
does to people out there trying to make a living? Trying to 
meet their payroll? Trying to provide for their families? Is 
there an awareness of it? Just be honest.
    Mr. Brizzi. For GSA, I believe that there is an awareness.
    We do interact with industry a lot. They do come in and 
speak to us with regards to our regulations and how it does 
impact them. As also, any time we do make any updates to any 
regulations, past or present and future, we do announce them on 
the Federal Register. We do get public feedback and engage. So 
there is awareness.
    We don't always necessarily act on it, because we have to 
weigh different factors. But we do engage and get that input 
from----
    Mr. Blum. I'm glad to hear you engage. That's good. Dr. 
Owens.
    Mr. Owens. I think the Department of Transportation it's 
fair to say, has had a long history of applying what's called 
retrospective regulatory reviews, and has long tried to clean 
up its regulatory structure.
    I can say that with the new administration, with those of 
us who joined in January and later, whether or not an executive 
order had been in place, we would have been making moves to 
improve and reform our regulatory state, including removing 
unnecessary regulations where possible.
    Mr. Blum. Without the executive order?
    Mr. Owens. Yes, without the executive order----
    Mr. Blum. This process was already moving?
    Mr. Owens. Well, the executive order came very early in the 
administration, so those of us who joined at that time, we 
didn't have a lot of time to get the institution up and 
running. But I think it's fair to say that whether or not the 
executive order had been issued, we at DOT would have been 
pushing forward with an effort to ensure that we're removing 
unnecessary regulations.
    Mr. Blum. Based on history and based on the past, most 
folks would not believe, out there in the real world, would not 
believe what you just said. Because we don't see it in the 
private sector. We don't see that at all. So I'm glad that your 
agency is having the private sector coming and you're listening 
to them in the GSA, and I would encourage all agencies to 
listen to the folks that pay our salaries.
    I yield back the time I don't have, Mr. Chairman.
    Mr. Meadows. I thank the gentleman from Iowa.
    The chair recognizes the gentlewoman from New York, Ms. 
Maloney, for 5 minutes.
    Mrs. Maloney. Thank you so much, Mr. Chairman. And I would 
like to ask Mr. Brizzi, the procurement policies that you've 
put out saying that the GSA is reviewing its procurement 
policies for outdated regulations. And as I understand it now, 
you've put out a product you need, or say what you need, and 
you have competitive bidding coming in, and then you make a 
decision of what is the lowest qualified bidder. But you're 
going to change this, the proposal that was in the 2018 
National Defense Authorization, Section 801, would require GSA 
to establish online marketplaces for the procurement of 
commercial goods. And I don't quite understand what you mean. 
What do you mean by that? In other words, you're going to--you 
tell me. What do you mean by that?
    Mr. Brizzi. I personally cannot speak to that particular 
legislation or what it's trying to achieve. I certainly can 
look into it. But I would say, certainly we want to engage 
industry, and we do want to get competitive bids and make sure 
that when we procure something from the public, that we take 
into consideration taxpayer money and get the best value 
possible for the government.
    Mrs. Maloney. Well, in the online marketplace provision, it 
says that any procurement of a commercial product through the 
marketplace, and I'm quoting here, ``shall be made under the 
standard terms and conditions of the marketplace, and the 
administrator shall not require an online marketplace to modify 
its standard terms and conditions.''
    So, for instance, suppliers are required to have a unique 
identifying number, and to agree to certain conditions 
regarding payment and timing.
    So does the GSA propose to reconcile these existing 
requirements with the language of the proposal that would 
prohibit modification of the online marketplace's terms and 
conditions?
    Mr. Brizzi. Again, I can't speak to that particular 
provision or the legislation that's being proposed. But once, 
if enacted, we will certainly update and look at our 
regulations to make sure those are compliant with any 
legislation that is passed.
    Mrs. Maloney. Well, I'd like someone from your office to 
come over and explain this new National Defense Authorization 
rule, because the procurement for the Defense Department is 
absolutely huge. And personally, I like the open bidding 
practice that says what they need and lets the marketplace 
respond to them. And this appears to mean that they're going to 
allow them to purchase online, is how I'm reading it, I could 
be wrong--instead of going through the competitive bid process. 
And I don't know if I think that's a good idea.
    If an online product wants to respond to an RFP, or product 
request from the government or from the Defense Department, 
then they can do so. Why in the world do we have to change the 
online ordering programs and say that they can't modify the 
terms and conditions? I really would like a clarification on 
it.
    Mr. Brizzi. Yes, ma'am. We'd be happy to provide that.
    Mrs. Maloney. Okay. And can anyone else comment on the 
rule? Are you familiar with it, Ms. Chung or Mr. Owens? No?
    Ms. Chung. I'm not.
    Mr. Meadows. If the gentlewoman would yield, actually we 
had a hearing on that, we'll be glad to get your staff a whole 
lot of information on that particular issue.
    Mrs. Maloney. Well, then maybe you can answer my question.
    Mr. Meadows. I can, but I don't want to take up your time, 
but you go ahead. I'll yield back.
    Mrs. Maloney. Okay. And I'm concerned about the President's 
executive orders, what they may have on transportation safety. 
And a few years ago, the National Traffic Highway Safety 
Administration requested input on updates to the New Car 
Assessment Program. And this program has been an innovative way 
to spur improvement and upgrades in the auto industry.
    Mr. Owens, what is the status of upgrading the NCAP to 
incorporate new technology to save lives? Every day I read 
about new ways to save lives.
    Mr. Owens. So we are certainly committed to vehicle safety, 
and we are very excited by the new technologies that are coming 
into being in the automotive industry.
    We are evaluating the NCAP program, and we want to ensure 
that when we update it, it will be updated in the best possible 
way.
    Mrs. Maloney. Well, is the executive order having any type 
of impact on the upgrading of the NCAP program?
    Mr. Owens. No, it does not. The NCAP program is not a 
regulation in any event, but it would not have an impact on 
whether and what kinds of upgrades we would do to this. This is 
a voluntary program that industry engages in, that industry 
supports very much, and we want to ensure that consumers have 
the best possible information available to them.
    Mrs. Maloney. Thank you. All right.
    Mr. Meadows. I thank the gentlewoman. The chair recognizes 
himself for a series of questions.
    So Ms. Chung, let me come to you. Mr. Blum from Iowa, I 
guess, was hitting in on some of the, ``why are you doing it 
now because of an executive order.''
    Would you suggest that the executive order has given more 
focus to actually reducing some of the regulations, even though 
it's been part of your ongoing effort? Because of the executive 
order, do you think there's more of a focus within your agency 
on reducing regulations?
    Ms. Chung. Yes, sir, I do. I think it has focused our 
efforts to formalize and institutionalize the process.
    Mr. Meadows. All right. And so, Dr. Owens, let me come to 
you, because obviously at DOT, there was a whole lot made of 
safety. Is there ever a time where safety is sacrificed as 
you're reviewing what regulations to get rid of?
    Mr. Owens. Absolutely not. Safety is our number one 
priority and as we analyze every possible rulemaking. We are 
looking to maximize safety benefits and other benefits and 
minimize the costs.
    Mr. Meadows. Okay. Dr. Owens, can you make the case that 
when have you some of these regulations and guidances that are 
out there that seem to just clog up the works, that the more 
streamlined you make it, the more you can focus on safety?
    Mr. Owens. I think that's a fair assessment. I think we are 
looking to remove costs that are unrelated to safety so that 
industry and the government can focus more on the safety 
issues.
    Mr. Meadows. Okay. Mr. Brizzi, let me come to you, because 
as we look at what GSA is doing and actually trying to 
streamline the whole regulatory side of things, what would you 
say has been the biggest impediment to actually getting that 
done?
    Mr. Brizzi. I wouldn't say there's been any impediments, 
it's just a matter of rallying more troops and----
    Mr. Meadows. Okay. Well, some on my side would suggest the 
deep state, or actually staff, but what I'm hearing is actually 
it's been career staff that has been helping all of you make 
these kinds of recommendations and changes. Is that correct, 
Mr. Brizzi?
    Mr. Brizzi. Yes, sir.
    Mr. Meadows. So what we're saying is that the Federal 
workforce, who has been here for a long time, is actually 
participating in this, making constructive recommendations on 
what we can get rid of from a regulatory point of view. Is that 
correct?
    Mr. Brizzi. Absolutely, sir, yes.
    Mr. Meadows. And, Ms. Chung, are you finding the same 
thing?
    Ms. Chung. Absolutely, sir.
    Mr. Meadows. Dr. Owens, are you finding the same thing?
    Mr. Owens. That is correct. In one sense, aside from 
industry and other stakeholders, our career staff are the 
closest to many of these regs, and many of them understand what 
is obsolete, what is outdated, what needs to be changed.
    Mr. Meadows. Okay. So let me make sure that I send a very 
clear message to your agencies.
    One, thank you for the job that you're doing. And today 
you're getting the applause, and not only of members of 
Congress, but certainly, the American people, who say that 
regulation after regulation, many times all it does is puts one 
regulation on top of another that makes it so laborious that 
they can't figure out what they should abide by and what they 
shouldn't.
    But I also want to thank your agencies, those career 
Federal employees, who many times get beat up by Members of 
Congress. And I just want to say, would you share with each one 
of them that we appreciate the fact that they are taking, not 
only this seriously, but that as they embark on that that 
they're making a real difference.
    Saving millions of dollars, Ms. Chung, one of those, I 
think you said they had already saved $10 million. Is that 
correct? So, eventually, that adds up to real money, right?
    Ms. Chung. Yes, sir.
    Mr. Meadows. All right. So will all three of you take that 
back?
    Mr. Brizzi. Happy to forward that message back, Mr. 
Chairman.
    Mr. Meadows. Okay.
    Mr. Owens. Delighted to do so.
    Mr. Meadows. Okay.
    Ms. Chung. Yes, sir.
    Mr. Meadows. All right. So let me also, in just the one 
minute that I have remaining here, in executive order, Mr. Blum 
is right, you know, why would an executive order be required?
    Sometimes, I have found that there is not an incentive or 
an encouragement for those who look at things the way that 
they've always been done and try to look at them in a different 
manner. And it is critically important that we let them know 
that that type of focus is there. I mean, there's a bill out 
there that we're looking at codifying this executive order in 
law.
    Would any of you say that that would, if we did that, that 
it would sacrifice safety or readiness?
    Mr. Owens. I would not believe that that would sacrifice 
safety.
    Mr. Meadows. Okay. Mr. Brizzi?
    Mr. Brizzi. I don't believe that to be the case.
    Mr. Meadows. Okay. Ms. Chung?
    Ms. Chung. I don't believe so.
    Mr. Meadows. All right. Well, thank you, and I will close 
with this: Dr. Owens, you were talking earlier about guidance 
and putting it in the Federal registry, and all of that. I want 
to give you a chance to clarify your statement, because I don't 
know that you actually meant that, because there is not a 
statutory requirement to do so. And in publishing, in fact, I 
think the rules that we--because when I heard that, it kind of 
hit very quickly. And I think the rules would suggest that 
rules of an agency, organization, or procedure, or practice, or 
interpretive rules, or general statements of policy are not 
really part of the notice requirement for rulemaking.
    And so, since we still have you under oath, not to put 
words in your mouth, but I assume that you want to abide by the 
statute, but not make a commitment to go beyond what the 
statute requires. Is that correct?
    Mr. Owens. Absolutely. We will comply with the statute and 
abide by all rules that apply to guidance documents.
    Mr. Meadows. All right. Well, thank you. All of you have 
been very delightful. And at this point, the first panel is 
excused.
    All right. The subcommittee will come to order.
    I am pleased to welcome and introduce our second panel.
    Obviously, all of you were here to hear the first panel as 
we went through that. We look forward to having your expertise.
    I'll go ahead and introduce, and, as usual, we start out 
with the most difficult name first. And so, Mr. Jitinder. 
Jitin-dee or -der?
    Mr. Kohli. It's phonetic. You can just literally read it 
out.
    Mr. Meadows. Okay. Mr. Kohli--how about that? Managing 
Director of Deloitte Consulting, welcome. Thank you; Ms. Diane 
Katz, Senior Research Fellow in regulatory policy at the 
Heritage Foundation, welcome; James Goodwin, Senior Policy 
Analyst at the Center for Progressive Reform, welcome; and Mr. 
Clyde Wayne Crews, Jr., the Vice President for Policy and 
Director of Technology Studies at the Competitive Enterprise 
Institute, welcome.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify, so if you will please rise and raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give, will be the truth, the whole truth, and nothing 
but the truth?
    All right. Thank you. You may be seated.
    Let the record reflect that all witnesses answered in the 
affirmative. And as a reminder, just 5 minutes on your verbal 
testimony, but your entire written testimony will be made part 
of the record. And Mr. Kohli, you are recognized for 5 minutes.

                           PANEL II:

                       WITNESS STATEMENTS

                  STATEMENT OF JITINDER KOHLI

    Mr. Kohli. Thank you. So you said I work for Deloitte 
Consulting, and I do, but the reason I'm here is because I 
served for 4 years as the head of the British Better Regulation 
Executive. And in that capacity, I led our regulatory reform 
program for the United Kingdom.
    So we started that journey in about 2005, and I have been 
going ever since in the United Kingdom. And in the remarks 
today, I really want to talk about some of the lessons from the 
British experience, which also reflect experience in other 
countries. So the U.K. model has been emulated, not just by the 
U.K., but also by other countries in Europe, the Netherlands, 
Denmark, would be some of those countries, Australia and New 
Zealand, Canada would be others of those countries. And indeed, 
the concept of 1-in-2-out now acknowledged by the Trump 
administration is a concept that was invented in London, 
indeed, in the organization that I worked for.
    So with that, let's talk a little bit about the U.K. 
experience. So in the period I was responsible for better 
regulation, serving Prime Minister Tony Blair, and then Prime 
Minister Gordon Brown, we made a commitment to reduce the 
administrative burden of regulation by 25 percent. And over 
that period of time, we took out $3.5 billion--billion pounds 
of costs from British business.
    Given that the U.K. economy is about seven times smaller 
than the U.S. economy, and given the U.K. economy, the pound is 
a stronger currency--less strong now than it was maybe a year 
ago, or a year-and-a-half ago, but nevertheless, a stronger 
currency--that gives you a sense of the savings.
    So what are the lessons of that experience? We were very 
much the pioneers of that, of how to do regulatory reform, and 
how to do it in a sustainable and effective way.
    So the first lesson I would say, is that you have to focus 
on the cost of regulations, not the number. Businesses don't 
care about the number of pages or the number of regulations 
that are out there. They care about the actual cost that they 
face. Indeed, they don't really care about the regulation 
itself, what they care about is the costs imposed by the 
regulation. So if they don't understand a regulatory 
requirement and they end up spending more time understanding 
it, that's a real cost. If, however, 1000-page regulation only 
touches one business in the land and doesn't impose much cost, 
that's a very minimal cost.
    So very much the focus in the United Kingdom was to think 
about real cost and real businesses, and only when we could 
demonstrate a real cost reduction on real businesses did we 
count that. So one lesson I would take away is that--and 
certainly, if you look at the administration's 1-in-2-out 
policy, there are obviously some risks there, if you look at 
just the number of regulations.
    Secondly, it is, you know, in our experience, it was 
essential to focus on maintaining protections at the same time 
as trying to reduce costs.
    If you are unable to maintain protections, you couldn't get 
the kind of consensus that you needed in order to drive 
regulatory improvement. In the U.K., we called it better 
regulation. We didn't call it more regulation. We didn't call 
it deregulation. And that was a very intentional decision.
    Our policy was to focus on how we regulated in order to 
make it better for the business community whilst at the same 
time maintaining protections that are essential for our 
society.
    As a result, we focused on simple things. Simplifying 
forms, automating processes; they're the kind of things that 
yield very significant savings for business, and yet are far 
away from the political limelight and have a real impact.
    The third lesson, I'd say, is avoid exclusions. The 
regulatory reform policy can only be effective if it's broad in 
its coverage.
    So, for example, if you're bringing in new controls on 
immigration and they require, and they require--and you're 
committed to a regulatory reform policy, you have to require 
offsets for those as well. And indeed, one of the members 
earlier was talking about the risks of exclusions.
    Of course, you might need some flexibility if the 
Transportation Security Administration requires limiting liquid 
going through airport security, as we all know they did, it 
would have been difficult for them immediately to bring in an 
offset. But actually, they did bring in offsets later of sorts. 
They brought in TSA Precheck, which we know saves people time 
and money, but maybe, if you had a more effective--an effective 
regulatory reform policy might make that happen faster.
    The fourth thing we learned is this is almost entirely 
about small businesses. Small businesses are the 
entrepreneurial engine of the economy, and unlike large 
organizations, which have compliance departments, small 
businesses' compliance department is the entrepreneur, often at 
11 p.m. At night.
    And so, focusing on protecting that small business and 
supporting that small business to succeed is what we want to 
do.
    I spent a lot of time with small businesses. And the thing 
I heard most of all is, We want regulation. We believe in the 
outcomes that regulation is there for, but we want it to be 
easier to comply, and so that's where we put our focus.
    I'm aware of time. The last thing I would say is 
fundamentally, this is about culture change. What we were 
trying to do was change the culture of government. And, indeed, 
now with new techniques such as advanced analytics, it's easier 
to change the culture of government. So what we--so regulatory 
reform for us was about driving sustainable culture change. 
And, indeed, 12 years later, the U.K. is still on that journey.
    [Prepared statement of Mr. Kohli follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you so much.
    Ms. Katz, you're recognized for 5 minutes.


                    STATEMENT OF DIANE KATZ

    Ms. Katz. Good morning. As we examine the administration's 
regulatory reform agenda, I'd like to provide some context 
about the regulatory landscape that the agenda is intended to 
reform. But before I even do that, it's driving me crazy, I 
have to correct an apparent misunderstanding on the part of 
some Members about what these executive orders can and cannot 
do with respect to----
    Mr. Meadows. Are you suggesting that Members are sometimes 
confused, Ms. Katz?
    Ms. Katz. Well, I'm not going to go there.
    Mr. Meadows. Go ahead.
    Ms. Katz. Under no circumstance can the task forces or 
agencies summarily get rid of health and safety regulations. If 
Congress, if there's a statute, statutory requirement, they're 
still required to fulfill that. And if they want to change it, 
they have to go through the same process by which the original 
rule was created, which is a long, protracted and very, you 
know, transparent process of rulemaking. Thank you.
    For the past several years, I and my colleague, James 
Gattuso, have tracked the number and costs of new regulation, 
and compiled the data in our annual Red Tape Rising reports. 
This year's report, by the way, is entitled Red Tape Receding.
    During its 8 years in power, the Obama administration 
issued more been 23,000 regulations, and increased cumulative 
regulatory costs by more than $122 billion annually, and that's 
only counting major rules, nor dozens of rules issued by 
independent agencies in the tally.
    The $122 billion figure was nearly double the $68 billion 
imposed under the administration of President George W. Bush.
    On the day President Trump took office, his administration 
inherited some 1900 actions in the rulemaking pipeline. And as 
the number of regulations has grown, so, too, has government 
spending on administration and enforcement.
    The pace of new regulations during the Obama years was 
unparalleled, but regulatory expansion have been occurring for 
decades under both Democratic and Republican administrations.
    The need for reform has never been greater, and the 
Heritage Foundation's 2017 index of economic freedom, documents 
the urgency. For the ninth time in the past 10 years, the U.S. 
has lost ground compared to other countries.
    In the business freedom component of the index, which 
measures the regulatory burden, the U.S., this year, registered 
its lowest score ever.
    The benefits of reform are numerous and well-documented, 
particularly for lower income Americans who bear a 
disproportionate burden from regulation, but progress is hard 
to come by.
    As you know, the Federal regulatory apparatus is immense, 
convoluted, and lethargic, and it involves decades of 
legislative, executive, and judicial edicts.
    So that means no single reform will be enough to reign it 
all in. A variety of systemic and strategic reforms are needed 
and we should welcome any new approaches.
    The most important component of any reform proposal is that 
it focus our attention and agencies' attention on reform.
    My written testimony details the administration's reform 
efforts in its first 6 months, but I'll briefly address EO 
13777 and EO 13771. And obviously, everyone here knows what 
those are.
    Although agencies are currently required to document that 
the benefits of a new regulation exceed the cost through a 
cost-benefit analysis, there's no constraint on the 
accumulation of new regulatory costs.
    Regulatory budgeting has the potential to inject some 
badly-needed discipline and rationality into the rulemaking 
process if its operational challenges can be addressed.
    The 2-for-1 requirement puts some long-needed muscle behind 
the multiple, but nonbinding White House directives, for 
agencies to conduct retrospective review. But there's some 
practical challenge that may affect these EO's utility, and I 
detail responses in my written testimony.
    But suffice it to say, that we're at the point in time when 
we need to do something more than has been done in the past. 
The administration has taken a very good step in starting. 
We'll have to see over the long term what it's able to 
accomplish, but there's also lots that Congress needs to do as 
well. Thank you.
    [Prepared statement of Ms. Katz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you, Ms. Katz.
    Mr. Goodwin, you're recognized for 5 minutes.


                   STATEMENT OF JAMES GOODWIN

    Mr. Goodwin. Chairman Meadows, Chairman Jordan, Ranking 
Member Connolly, and Ranking Member Krishnamoorthi, and members 
of the subcommittee. I appreciate the opportunity to testify 
today on the Trump administration's ill-conceived regulatory 
reform task forces, the lack of adequate transparency and 
meaningful public participation, and, indeed, whether their 
efforts to undermine the regulatory safeguards we all depend on 
should be taking place at all.
    My prepared testimony for the record makes three points: 
One, regulations are essential for safeguarding the public. 
Two, the Trump administration's task forces and the regulatory 
review processes that they were created to carry out are 
fundamentally flawed, as both a theoretical and practical 
matter. The work threatens to do much more harm than good and 
this experiment in regulatory reform should be abandoned. 
Three, given the Trump administration is unlikely to abandon 
the pillars of his assault on public safeguards, Congress must 
be vigilant, and must conduct vigilant and thorough oversight 
of the task forces in the work they undertake.
    I conclude by offering some recommendations on what this 
oversight might entail.
    My oral presentation will focus on these latter two points. 
Point 1, the Trump Administration's regulatory reform task 
forces and the work suffer from at least 4 fundamental flaws: 
One, the public harms they will create; two, their lack of a 
rational policy basis; three, their continuing disregard of 
fundamental norms of administrative law; and four, their 
intractable implementation problems.
    Today, I will focus my remarks on the task force's 
disregard of fundamental norms of administrative law.
    As William Funk, a leading scholar on the subject, has 
noted, transparency and public accountability are two of the 
essential hallmarks of U.S. administrative law. Fidelity to 
these principles is essential to ensuring that agencies are 
dutifully fulfilling the missions that Congress has set out for 
them in their authorization statutes. Transparency assists 
Congress in performing its oversight activities more 
effectively, while public participation serves as a mechanism 
for connecting the abstract goals that Congress has articulated 
in statues to the practical realities of the world in which 
implementing regulations will give life to those goals.
    Therefore, Congress, in particular, has an especially 
strong interest in ensuring that regulatory actors comport with 
the principles of transparency and public participation. And 
Congress, in particular, should be outraged when regulatory 
actors defy those principles.
    To this point, the operation of the Trump administration's 
regulatory reform task forces has been marked by a distinct 
lack of transparency and balanced public administration, 
rendering them susceptible to abuse by narrow interests.
    With regard to transparency, Executive Order 13777 imposes 
no real mandates on agency task forces to operate in an open 
manner that will allow for meaningful public accountability or 
congressional oversight. The order does not mandate that 
agencies disclose the identity of their task force members, the 
task forces are not subject to any open meeting requirements, 
the task forces never need to explain the basis for the 
recommendations. Indeed, these recommendations never need to be 
disclosed at all.
    With regard to public participation, individual agency task 
forces have taken wildly divergent approaches to seeking public 
input, suggesting that this process is, at best, a low 
priority, and, at worst, window dressing.
    When agencies did solicit public input, it was debatable 
whether these opportunities truly offered members of the public 
a credible avenue for impacting the task force's 
recommendations. The deadlines for submitting comments are 
often too short, and these deadlines often fell right before, 
or even after agency task forces were required to submit their 
initial reports of recommendations.
    Point 2, going forward, Congress will have an important 
role to play in supervising the regulatory reform task forces. 
I outlined some steps that they should take as part of this.
    The first step this and other committees should take is to 
make full use of their oversight and information-gathering 
authorities. The second step Congress should take is to monitor 
the deregulatory actions the Trump administration is carrying 
out to ensure that they are complying with applicable 
procedural safeguards.
    My prepared testimony outlines several criteria that 
Congress may wish to use to inform these monitoring efforts.
    As a third step, this and other relevant committees should 
commit to taking appropriate and effective responses whenever 
they identify potential instances of agencies failing to abide 
by their administrative law responsibilities.
    As a fourth and final step, this committee may wish to 
investigate on an ongoing basis, other matters of critical 
importance that are relevant to the work of the Trump 
administration's task forces, such as the degree to wish the 
work comports with basic administrative law principles, such as 
transparency and balanced public participation.
    Thank you. I will be pleased to answer any questions you 
might have.
    [Prepared statement of Mr. Goodwin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you, Mr. Goodwin.
    Mr. Crews you're recognized for 5 minutes.


                 STATEMENT OF CLYDE WAYNE CREWS

    Mr. Crews. Good morning. I'm Wayne Crews, Vice President 
for Policy----
    Mr. Meadows. You can pull the mike a little bit closer, if 
it's on there.
    Mr. Crews. Vice President for Policy at the Competitive 
Enterprise Institute. And I thank the chairman and the members 
for the invitation to address regulatory reform task forces, 2-
for-1 rule pacing and cost management.
    These steps reaffirm sound regulatory review and agency 
engagement, but will best function within a framework of 
improved congressional accountability for what regulators do. 
Politics obscures it now, but alongside overseas development, 
like Britain's 1-in-3-out, proposals to monitor regulatory 
costs have deep bipartisan pedigree. Regulatory budgeting dates 
back to Jimmy Carter, and to Texas Senator Lloyd Bentsen, who 
became Clinton's Treasury Secretary.
    A modern bipartisan root of Trump's 1-in-2-out is Senator 
Mark Warner's 2010 PAYGO. After Trump's first 9 months, and 
after OIRA's agency directives to include cost allowances in 
the upcoming unified agenda, what makes us know the task forces 
are solid ideas? What successes and weaknesses stand out? 
Reagan's Executive Order 12291 that kick-started OIRA, showed 
that the pen and phone can expand liberty in terms of 
stabilizing rule counts and Federal Register pages. Trump's 
reductions appear to be the most significant since then; 
meanwhile, dozens of guidance documents have been rescinded, 
such as the Labor Department proclamations on franchising and 
independence contracting.
    But too much of the regulatory apparatus is beyond OIRA's 
scope. The core reality is the revoking a rule requires another 
notice and comment rulemaking progression. And long term, task 
force machinery can't overcome presidents who deprioritize 
oversight. Meanwhile, the 800-pound gorilla independent 
agencies get no OMB scrutiny, even under Trump's orders. And 
until Trump's orders, guidance documents, memoranda, and other 
regulatory dark matter rarely got scrutiny either.
    Also, task forces must address unmeasured categories of 
intervention that propel cost, not just discrete rules. When 
government steers while the market merely rose, that creates 
compounding costs, even if no budgetable rules get issued, such 
as the re-embrace of a public utility model in the tech and 
telecom sectors.
    Rules with cost analysis amount to a small percentage of 
the rulemaking enterprise. That, along with the administrative 
state's broader weakening of democratic accountability, only 
strengthens the case for Congress' restoration of Article I 
checks and balances. In the meantime, as Neomi Rao advises, 
Congress doesn't have to wait, it can revoke rules if Trump 
can't.
    Other steps include boosting OIRA resources and 
implementing a bipartisan regulatory improvement commission 
with goals and targets. As for 2-for-1, it may make sense to 
emphasize equivalent burdens, perhaps dollar-for-dollar, rather 
than rule-for-rule.
    I highlight also the former U.S. regulatory program, a 
sister document to the Federal budget and a model by which OIRA 
could compile annual transparency statistics to better compare 
apples to apples, to underscore when cost and benefits are not 
quantified, and to better distinguish between additive and 
subtractive rules and guidance.
    At bottom, the benefit sought via regulation are also forms 
of wealth, and they require market disciplines, not just 
political ones, to flourish.
    Markets and competitive enterprise make the world, not just 
richer, but fairer, safer and cleaner. Regulation doesn't get 
all the credit.
    Disagreements over regulatory benefits are the core concern 
that separate left and right today. These are irreconcilable. 
But that's actually constructive because it underscores that 
elected legislators must resolve controversial issues involving 
regulations with massive impact.
    But for lesser anxieties, my optimism rests in knowing that 
some among us agree that sometimes, so-called market failures 
might be rooted in long-standing political failures, and that 
coercive top-down regulation isn't always the answer. On good 
days, both the left and right understand regulatory capture and 
rent-seeking.
    Until Article I comes to the rescue, here's hoping that 
today's invigorating savings and streamlining, remain permanent 
changes to the regulatory and guidance landscape. When it comes 
to economic expansion, you don't have to tell the grass to 
grow, but you do need to move the rocks off it. Why not use the 
new task forces as a lever.
    Thank you very much.
    [Prepared statement of Mr. Crews follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you. Thank you all for your insightful 
testimony this morning.
    The chair recognizes the gentleman from Georgia, Mr. Hice, 
for 5 minutes.
    Mr. Hice. Thank you very much, Mr. Chairman.
    Mr. Katz, let me start with you. You've made--you implied 
that Members are confused on some issues. So let me pick up on 
that.
    I am one of them that you confused in some of your 
statements, but particularly when you described--in your words, 
not mine--but that the manner in which regulations come forth 
is a hard process, a transparent process. From my perspective, 
it's neither of those. I have run into businesses that are 
totally unaware that regulations are being formulated. They 
just wake up one morning and find out there's more regs in 
their various industry, whatever it is, and they bypass 
Congress. And all of a sudden, here is--I mean, we have one 
legislative body, and that's not agency.
    So what is the regulatory process by which they're created?
    Ms. Katz. The Administrative Procedures Act covers most of 
the rulemaking process. And what I meant by transparency was--
and this is the, you know, disadvantage to small businesses, is 
that, you know, there are a lot of points along the way in 
which businesses can, you know, offer their comment.
    Unfortunately, small businesses can't afford the legions of 
lawyers and lobbyists that big businesses do to keep track of 
all that's going on in the regulatory space. But the 
Administrative Procedures Act and the, you know, a variety of 
other acts and executive orders, you know, do govern a very 
systematic process of rulemaking. And in some respects, it's 
too rigid, but it does exist.
    Mr. Hice. I would like to have more information on that, 
because I see these regulations, in essence, become law. 
People, businesses have to abide by them. It's law. And there's 
penalties if they don't. And these are laws that are not 
created by Congress. And yet, they are happening without the 
jurisdiction and oversight of Congress. And to me, that's very 
problematic. That's not the way our system is designed to 
operate. But let's move on from here.
    Let me, Mr. Crews, let me hit you. In previous attempts 
from other administrations, retrospectively, review 
regulations, oftentimes, that actually resulted in more 
regulations. What makes this effort different?
    Mr. Crews. You have to have an engaged President, an 
engaged executive to do it. There were cuts under the Obama's 
administration retrospective review program, and I think that's 
important in this debate too, because I heard you mentioned 
James Gattuso at the Heritage Foundation. I heard him say if 
the Obama's administration retrospective review program was a 
legal thing to do, and an appropriate thing to do, this kind of 
approach is, too. But when President Reagan came in, and set up 
the initial central review process at OIRA, it already 
preexisted because of the Paperwork Reduction Act, but that was 
when there was a focus put on--doing cost benefit analysis of 
regulations.
    But the problem is, still, so many of them are missed, and 
that's one of the reasons the cost can still go up like you 
talked about, because if you're talking about a flow of over 
3500 rules that are going through every year, and then you've 
got a few hundred that OIRA reviews that are considered 
significant, then of that, there are some that are major or 
economically significant. And of those, you end up with just a 
sliver, a dozen or so, that have a cost benefit analysis at 
all, and there's a few extras that have cost analysis. So 
there's a lot that can slip through.
    And other forms of costs may come in the form of regulatory 
guidance and things of that sort, because you mentioned small 
business and business, you've certainly heard from them on 
regulatory guidance in recent years, too. But I think that's 
one of the reasons----
    It takes effort and it takes setting goals. I think if you 
try to do regulatory reduction commissions, or if you try to--
if you try to put this kind of regulatory review model in 
statute, something like that, you still got to put goals in 
place, so that the regulators know that it's time to trim 
things. And this is not a partisan issue, too. I mean, when the 
Regulatory Improvement Commission was debated, I remember a 
report from the Progressive Policy Institute where they said, 
these rules are stacking up. It's like pebbles in a stream. You 
put, you know, you drop a little pebble in the stream, and 
that's fine, but over time, it accumulates.
    And one of the things that we don't ever do is go through 
and try to say, well, how much of this makes sense anymore?
    As I said in my testimony, it's not just regulation that 
gets you health and safety benefits, too, you've got to get 
those from other--you've got to have a lot of forces that are 
ready to expand health and safety, as well as economic 
efficiency. So it's just, it's too easy for rules to slip 
through, is the essence of it.
    Mr. Hice. Okay. Just a yes or no really for me, Mr. Kohli, 
thank you for being involved in the U.K. and here, what you 
did. The differences in our government, will it impact the 
success of this effort here, the differences between the U.K. 
and the U.S.?
    Mr. Kohli. The U.K., not having a separation of powers, the 
primary difference is around Congress. And the primary 
difference between the U.K. and the U.S., is the U.K. requires 
regulatory impact analysis for acts by Parliament. The U.S. 
does not require regulatory impact analysis for acts of 
Congress.
    Mr. Hice. So can this still work here, is my question?
    Mr. Kohli. It could. That's definitely a limitation in the 
U.S. model, but it's a difference.
    Mr. Hice. Okay. Thank you, Mr. Chairman. I yield.
    Mr. Meadows. I thank the gentleman. The chair recognizes 
the gentleman from Illinois, Mr. Krishnamoorthi, again, for 5 
minutes.
    Mr. Krishnamoorthi. Thank you, Mr. Chairman. If there's one 
thing my constituents care about, it's effective and efficient 
government. That is why it's concerning to me to see what the 
Trump administration is doing, for instance, in the area of 
healthcare. It appears that they are actively undermining 
programs to help my constituents afford quality health 
insurance.
    I would like to ask whether there are legitimate reasons 
for some of the things that the Trump administration is doing, 
or whether they're just playing politics.
    Mr. Goodwin, the Trump administration has indicated it will 
stop necessary cost-sharing subsidizes that help Americans 
afford health insurance. This has required Congress and some of 
the lawmakers, especially in the Senate, to come up with an 
agreement to help save health insurance for millions of 
Americans, and even that plan is at risk of not being able to 
be passed by the House.
    Mr. Goodwin, is there a reason, other than politics, that 
would explain why the Trump administration is putting the 
health insurance of millions at risk?
    Mr. Goodwin. Healthcare is a little outside my wheelhouse 
policy-wise, expertise-wise, but I guess I can answer as an 
interested member of the public, somebody who reads the 
newspapers. And from my, sort of outsider perspective, it does 
look like playing politics.
    And, I mean, that still should be of grave concern, because 
it really undermines public esteem for our governing 
institutions when something like healthcare policy, people's 
healthcare is being used as a political, or is being targeted 
through political games.
    Mr. Krishnamoorthi. Mr. Goodwin, the Trump administration 
has also issued an emergency rule, which would allow any 
employer to claim an exemption from providing woman with birth 
control under the Affordable Care Act. Mr. Goodwin, is there a 
reason, other than politics, that would explain why the Trump 
administration is putting the healthcare of millions of women 
at risk?
    Mr. Goodwin. Similar answer as before, I can't think of a 
legitimate policy reason, but, again, I'm outside of my 
substantive policy wheelhouse. To me, it looks like playing 
politics, and that's just as the damaging to the institution of 
the presidency, I think.
    Mr. Krishnamoorthi. And finally, Mr. Goodwin, the Trump 
administration has announced it will be taking down the 
healthcare.gov website for, quote unquote, ``maintenance'' 
every Sunday morning through the end of the open enrollment 
period.
    These morning hours, as you know, are the ideal time for 
Americans, especially families, to shop for health insurance. 
And this plan will make it difficult for many Americans to shop 
for the right health insurance plan for them at times that are 
convenient for them. Mr. Goodwin, is there any reason, other 
than politics, that would explain why the Trump administration 
is actively sabotaging the efforts of American families to plan 
for their healthcare futures?
    Mr. Goodwin. It doesn't look good. And it really would be 
great if the Trump administration explained the policy basis 
for that. Because otherwise, we're just left with the 
impression that this is just an ideological driven action on 
their part.
    Mr. Krishnamoorthi. Thank you, Mr. Goodwin. I'm 
disappointed to hear that it appears that the Trump 
administration is playing politics with the healthcare of 
millions of American families. I hope the administration 
considers doing better by them.
    Thank you very much.
    Mr. Meadows. The chair recognizes himself for a series of 
questions. Mr. Kohli, let me come to you.
    Where did you see most of the cost reductions in your 
implementation in the U.K.?
    Mr. Kohli. Across the board. So I would say the largest 
areas were around occupational health and safety, around 
employment. We had a big area around--yeah, so those would be 
the two largest areas, I would say, off memory, it's a little 
bit dated. And but, again, I just want to emphasize the way in 
which we did it. So you would have an agency like our food 
standardization agency responsible for supporting, making sure 
that restaurants followed good food hygiene.
    Mr. Meadows. Right.
    Mr. Kohli. And they would regularly visit a restaurant 
establishment and find that the establishment didn't know what 
to do in order to comply with the law. And so was endangering, 
was endangering the visits of people who went to the premises.
    And so the approach was to give them much clearer guidance, 
which said, Here are the ten things you need to do. And often 
small businesses, particularly, found that extremely helpful in 
helping them work out what to do, and therefore, it was 
possible for them to reduce costs whilst maintaining 
protections.
    That similar approach was used by a number of our agencies. 
Another thing that was a very important approach was looking at 
eEnablement, so we were in the relatively early days of the 
internet as we were starting this, and by taking processes away 
from complex paper forms and putting them on easy intuitive 
electronic processes, where we use design-thinking to design 
the technique in a way that is intuitive for the user, can get 
rid of all of that time when you're trying to work out what 
you're meant to do and replace it with time when you're having 
a seamless transaction.
    So, you know, those kinds of things were very, very 
powerful, and were the bulk of the changes that the U.K. made.
    Mr. Meadows. And since many Members of Congress love to 
watch C-SPAN and watch the debating back and forth in a 
different style than what we're used to here, you know, perhaps 
you can help me understand. When you actually implemented that 
in the U.K., the cost savings, how did that get redirected? Was 
it redirected somewhere else? Was it actually--I mean, how was 
it realized?
    Mr. Kohli. These are savings for business.
    Mr. Meadows. Right.
    Mr. Kohli.  And we had a very high-quality accounting 
system for a pound of savings. We had to demonstrate it with a 
genuine saving for business. We then had the numbers validated. 
We now have an independent committee which validates all those 
numbers, called a Regular Free Policy Committee, and, you know, 
businesses would use that time, you know, for things that are 
different to complying with regulations.
    So let's take that small business restaurateur, the moment 
when they're not trying to work out what the rules are, they 
are using that to think about what should be on the menu next 
week, you know, so it releases time back into the economy. But 
the one thing I would say is, you know, we were able to get the 
support of both the trade union community and consumer groups, 
because our emphasis was absolutely about maintaining 
protections.
    And our emphasis was not about, you know, reducing air 
quality or reducing worker safety, or anything like that. It 
was all about maintaining protections and looking for places 
where you could streamline the process. And indeed one of your 
colleagues talked about how businesses sometimes find it hard 
to learn about new regulations. You know, we had a review 
around small businesses and guidance, and somebody said to me, 
you know, we had a small business person lead that review. And 
she said, Have you ever bought an electronic device, like a 
television? I said, Yes. And she said, you know, When you buy 
one, you get a quick start guide, which tells you what you need 
to do when you--you know, when you start up the TV. Yes, you 
get the 100-page manual, but you also get the quick-start 
guide. And she said, Where is your quick-start guide for 
regulation? And that was an incredibly powerful insight, and 
one that, you know, allowed us to think about new ways to do 
that. So within, you know, within a relatively short period, we 
were setting up quick start guides for every new regulation.
    Another thing we did in the U.K. is, almost all regulations 
come into force on 2 days of the year. And so they're either 
coming into force in April or in October, and so, while there 
may be a number coming into force, because they're all coming 
into force on the same day, it's easier for businesses to get 
used to; whereas, if you have one coming in every month.
    These are very easy things to do that do not impact on 
protections but have real impact. But they're a long, long way 
from the sort of political dialogue. And the last thing I would 
say is, our approach was highly technocratic. It was about 
technically boring things that made a difference in the real 
world.
    Mr. Meadows. Well, thank you. So I'm running low on time. 
We'll have a second round where we'll be able to follow up with 
some of the rest of you.
    So let me finish very quickly, Mr. Kohli.
    Mr. Meadows. Would you say that this type of regulatory 
process where we're actually reviewing and removing regulations 
should be a long term process or more of a spring cleaning kind 
of once-a-year event that we go in and review it?
    Mr. Kohli. Certainly the experience of other countries, the 
United Kingdom, you know, Australia, the Netherlands, et 
cetera, has been that introducing long term disciplines is 
very, very important in the same way that long term disciplines 
around high quality cost benefit analysis, which a number of my 
colleagues talked about on the panel, is important. You know, 
always thinking about ways to maintain protections while 
streamlining is a good things as well.
    Mr. Meadows. So long term.
    Mr. Kohli. Yes.
    Mr. Meadows. All right. The chair recognizes the 
gentlewoman from the District of Columbia, Ms. Eleanor Holmes 
Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. Long before 
I came to Congress, I chaired the Equal Employment Opportunity 
Commission and had the experience of dealing with regulations 
and guidelines. And so I'll preface my question by indicating 
to you, in light of the high profile of sexual harassment in 
today's headlines, that the Commission studied what were then a 
few court decisions, District Court decisions, indicating that 
sexual harassment was a violation of an antidiscrimination act. 
And it had not been so declared.
    When we--we did so, of course, we put the guidelines out 
for comment, but I did something that may be fairly unusual, 
and I wish we had done more often today. Obviously, business 
did not want any kind of regulations of any kind, and I've 
never heard of a business testifying in favor of regulations, 
but I called in the leaders of the business roundtable and 
other such business groups, and indicated what we had seen 
happen. That essentially it looked like courts were opening 
them to liability, and that the Government agency had given 
them no indication of what in the world sexual harassment was.
    There's a broad statute, it didn't put sexual harassment in 
it. So employers didn't even know what to tell their managers 
about how to handle this very delicate problem, so we have to 
call them in. And I said, I know you don't want to see any 
regulation, but if you do not even know what sexual harassment 
is, how can you be protected against sexual harassment.
    So you can talk about regulations all you want to, but I 
had a good conversation at that time with the business 
community, and got their input personally about how they had 
handled sexual harassment. And I must tell you, some of what 
had hit the newspapers would make anyone bow their head. And I 
give you that experience because I had to cope with what 
regulations--guidelines that had never been defined. And, by 
the way, the Supreme Court went on to find that the guidelines 
were constitutional, and I believe the guidance has been 
helpful to business, as opposed to being left out there with 
nothing said.
    Therefore, it seems to me, you know, when I went beyond 
notice and comments, but actually had the business leaders to 
come in and see me, I have valued transparency because we did 
accept many changes that could only come from them. That 
experience, with chairing an administrative agency, has led me 
to understand how important transparency is, instead of just 
being a word that everyone will always buy into. So I'm 
interested in these task forces. The public will be interested 
in these task forces.
    Do any of you know whether or not these task forces consist 
of career civil servants or, for example, appointees, does 
anybody know that? Yes, Mr. Crews.
    Mr. Crews. In the panel this morning the indication seemed 
to be that the majority where a lot of the members were career 
employees, but other than that, I don't know. That's what I had 
heard in prior reports as well, and I think that's probably 
true. But I thank you for the comments on guidelines, it's 
very, very interesting the distinctions between regulations and 
guidances and what role the regulators take and what role 
Congress takes.
    Ms. Norton. Well, the guidelines were no different in the 
long run to regulations because the Supreme Court in defining 
what was sexual harassment used the guidelines, and said that 
what the agency had found was, in, fact the definition from 
here on in. And so you go to the Supreme Court today you will 
find those guidelines used.
    But the importance of the guidelines, as far as I was 
concerned, was it told business what was a violation in the 
first place. So the transparency is very important, it seems to 
me, to all of us.
    And, Mr. Goodwin, you've heard Mr. Crews say that he 
thought that these were primarily career civil servants, and we 
understand career civil servants operate under the guidance of 
appointees. But it was reassuring to hear that he believes 
there were career civil servants who then, of course, would 
have to convince the appointee. But what is your view of who 
should be on these task forces?
    Mr. Goodwin. Well, I was encouraged, too, by the fact that 
there is so many career employees on these task forces. I mean, 
the first question that sprung to mind for me today was why am 
I just hearing about this for the first time today. I didn't 
know anything about these task forces, for the most part, the 
identity of the membership, until today. So congratulations to 
this committee for extracting that information.
    But this is something I have been tracking for a long time, 
and I know a lot of people have. So it's a little disappointing 
that we're just now learning basic stuff about these task 
forces, which are evidently so important and having such a 
crucial--or making such a crucial contribution to the Trump 
administration's domestic policy agenda. So I would note that.
    And the other thing I would note is I hear so much about 
how the--the deep state at these agencies and how they are 
sabotaging everything that the Trump administration is doing. 
And then one by one by one all of these agency representatives 
said that, no, that's not the case at all, these people are 
professionals. They are given a task and they do it well. And, 
you know, I share the chairman in applauding them for that, I 
think that's great. And it reflects really well on the public 
servants in our agencies, and I hope we all learn something 
from them.
    Ms. Norton. Do you think, for example, we ought to at least 
know the agenda of the task forces so as to know which kinds of 
regulations they are focusing on so that we know, for example, 
whether they are focusing on outdated regulations? Of course 
regulations have to be updated, or lifesaving ones. Is there 
any agenda published so that the public would know which 
they're focusing on. Ms. Katz?
    Ms. Katz. I can't say whether the agendas themselves are 
published. I can say though that if the task forces recommend 
to the agency that there be changes to particular rules, that 
the agency does have to open, you know, a docket, if you will, 
and take public comment on changing that regulation.
    In other words, you have to create a regulation to get--to 
end a regulation. And that's the process I was referring to 
earlier in terms of there being a formal process.
    Ms. Norton. Well there is already in place something to--
from OMB for a cost benefit analysis. Let's go and do--are 
there difficulties in doing a cost benefit analysis that 
everybody could agree upon is objective?
    Mr. Goodwin. Well, I think what we're learning from the 
cost benefit analyses on these rules that are being rolled back 
under the Trump administration is that they're anything--well, 
any sort of claim to credibility or objectivity that cost 
benefit analysis may have had has been thrown out the window 
with these cost benefit analyses.
    Ms. Norton. Is there an objective way to do cost benefit 
analysis?
    Mr. Goodwin. I mean, there is, unless you're trying to 
support a decision made by other means, and I think that's what 
we're seeing with these cost benefit analyses. If they were to 
do an honest cost benefit analyses for these regulatory roll-
backs, frankly, the roll-backs would look terrible as an 
economic matter. And that's why, for example, at the EPA, the 
Trump administration, and Administrator Pruitt, put out these 
really fuzzy cost benefit analyses where, you know, problematic 
data, assumptions, accounting tricks, kind of iffy accounting 
tricks were used to justify these decisions that under any 
reasonable applicable of cost benefit analysis would not pass a 
cost benefit analysis test.
    Ms. Norton. Mr. Chairman, if I may ask a final question 
here. I'm really only looking for--Ms. Katz testified that, you 
know, at such point as I suppose you were saying, Ms. Katz, 
that the task forces had a change that they wanted the agency 
to make, at that point there would be some transparency? Was 
that your testimony?
    Ms. Katz. The task forces only make recommendations to the 
agency, they don't carry out----
    Ms. Norton. Well see, that's important. So how do they make 
recommendations without having--without being identified so 
that they could receive some input from the public?
    Ms. Katz. I do believe they get some input from the public.
    Ms. Norton. Well, we don't even know who they are, how do 
they--at the regulatory stage, you have to have input from the 
public, but then you're making a recommendation to, let's say, 
the head of the agency, but you've had no input from the public 
at that point, but you are making a recommendation for changes 
in the regulations.
    Ms. Katz. Yes. And these are experts who are making the 
recommendations. But I suppose it's up to every agency how much 
input they want to get on their internal recommendations. But 
as soon as there's any action involved, then public input is 
immediate.
    Ms. Norton. Mr. Crews, did you want to say something on 
that?
    Mr. Crews. Just a quick thing. I think it's important to 
point out that--I think the agencies of their own accord could 
have undertaken these kinds of task forces on their own. It 
didn't have to come from a presidential executive order----
    Ms. Norton. I think that's an important point.
    Mr. Crews. Right. So we have to agree that a President--
because remember, these are executive agencies, not the 
independent agencies. We have to agree that the President has 
some authority in setting his own regulatory agenda.
    Ms. Norton. He certainly does, and he wants as much 
information as he can get.
    Mr. Crews. But Diane is right. Once--but it could have been 
done without an executive order, so that's one thing, so you 
would know it's going to be internal people----
    Ms. Norton. We're not questioning the legality of the task 
forces.
    Mr. Crews. Some are--a lot of the questions seem to be, I 
think.
    Ms. Norton. I think you can rely on, you know, whoever you 
want to on your staff. I'm just--it's a transparency question 
for me.
    Mr. Crews. It comes out in the notice and comment, that's I 
think----
    Ms. Norton. But these people have already made a 
recommendation. Look, when I chaired the EEOC, I was dependent 
upon staff.
    Mr. Crews. Right.
    Ms. Norton. The earlier I had some notion of whether 
business would think this is the worst thing in the world, the 
better off I was. And I'm asking whether or not early 
consultation with the public would be facilitated if the task 
forces asked for some information from the public or from 
experts, and if we knew who they were, instead of making them 
look like they're part of some deep state that nobody knows 
anything about ever, because we don't know anything--we don't 
even know what they do until the agency head----
    Mr. Crews. I hear what you're saying. I think that's where 
things are headed. I think that's the trajectory. You might 
remember a couple weeks ago now, there was a day--it was 
October 2, Vice-President Pence gave a speech at the White 
House, and after that there were break-out sessions across the 
various agencies. I went to one of them, and what the key point 
is that they are looking for comment from the public, and----
    Ms. Norton. The task forces?
    Mr. Crews. It wasn't the task forces. This was the break-
out sessions from the agencies, which you would imagine have to 
include and be part of the task forces because a lot of the 
theme of all of this was the executive orders and taking 
another look at regulations.
    So part of that ethos was getting input from the public. So 
I think that's where it's all headed. And ultimately whatever 
is put together in the docket would have to go through public 
notice and comment anyway, because you can't get rid of a 
regulation, you can only replace it.
    Ms. Norton. Finally, I understand that, but----
    Mr. Meadows. The chair is going to give a generous 8 
minutes here. So go ahead, your final question.
    Ms. Norton. Thank you, Mr. Chairman. You're a good friend, 
but you do understand I'm holding up the fort by myself on this 
side of the table?
    Mr. Meadows. And using everyone's time that's not here, but 
go ahead. Last question.
    Ms. Norton. And they have ceded to me, if that helps. And I 
appreciate your generosity. What I'm really saying is that--and 
I'm going from my own experience. I didn't have a sense of 
what--I knew business was on the spot, because they could--
there could be liability if, in, fact they were sued.
    I knew they didn't like regulations, so I had my own staff, 
even before I called them, to consult with business so that I 
would not, in fact, in the first instance, be issuing 
guidelines that would send them up the wall. What I value so 
much, Mr. Chairman, is that you have opened up for us the 
notion of these task forces that we knew nothing about.
    And, Mr. Crews, I appreciate what you said because--I hope 
the chairman heard what Mr. Crews said, that he felt we were 
headed toward more input for the task forces themselves from 
the public so that by the time they got to the agency level, 
their own recommendations would have more credibility because 
somehow or the other the public had been--business to be sure, 
and the public had been asked their advice, maybe not on any 
final regulations, but at least on what the task force was 
undertaking. So I appreciate, Mr. Crews, your notion that you 
think they were headed in that direction.
    And I thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentlewoman. The chair recognizes 
himself for a series of questions.
    Ms. Katz, I want to come back to you because you've made it 
very clear that this is an open and transparent process when it 
comes to actually--I think you said you need to set up a 
regulation to do away with a regulation. I think what you meant 
is you need to set up a rule to do away with a regulation, 
which requires the same comment period as we do that. And 
you're in my wheelhouse now. This is what I live for.
    And so, at this point, if we're actually going to do away 
with a rules and regulations and guidance, is there not a 
noticing period that's required under Federal statute any time 
that we're going to have to adjust that, is there something 
that's required.
    Ms. Katz. For most rules, there would be. You know----
    Mr. Meadows. What about guidance?
    Ms. Katz. I'm sorry.
    Mr. Meadows. What about guidance?
    Ms. Katz. Well guidance--I may need your help on this. I 
don't know if guidance has to go through a rulemaking 
procedure.
    Mr. Crews. No.
    Mr. Meadows. So now you're really hitting in my area 
because the gentlewoman made a good point. Many times guidance 
is viewed just as strongly as rules and regulations, in fact, 
we found that a lot of times administrations get around the 
rulemaking process by offering guidance that carries, 
essentially, the enforcement of law, but maybe not the 
enforcement of law, depending on how it gets litigated. So do 
you see a problem there?
    Ms. Norton. Mr. Chairman, if I could just yield a second of 
your time to say----
    Mr. Meadows. Well, you've used a second of everybody's 
time, so why not. Go ahead.
    Ms. Norton. The guidelines I speak of did not have to go 
through the rulemaking process, and I deliberately put them 
through the rulemaking process.
    Mr. Meadows. Kudos to you. Ms. Katz.
    Ms. Katz. Some things are reviewed by the Office of 
Information and Regulatory Affairs.
    Mr. Meadows. OIRA.
    Ms. Katz. There are some that don't. And I think the 
exchange with Mr. Hice and I--what I had meant when I referred 
to transparency and openness was proper rulemaking. So I just 
want to correct that. But that being said, the other real 
loophole here is on independent agencies. And this is 
particularly problematic because since 2010 and Dodd-Frank, 
hundreds, if not thousands, of very costly and burdensome 
regulations have come through these independent agencies. 
They're the ones who are getting a free pass here, and that's 
another problem.
    Mr. Meadows. And so your premise is that they should not 
get a free pass.
    Ms. Katz. They should not get a free pass.
    Mr. Meadows. Mr. Crews, do you agree with that?
    Mr. Crews. I would agree they should not get a free pass. 
The independent agencies are heavy, heavy regulators. And it 
had been the case that economic regulation in the U.S. was 
declining and environmental regulation was rising. But in 
recent years, after Dodd-Frank and then the healthcare 
legislation, and now net neutrality legislation--and 
regulation, and things of that sort. Economic regulations 
trickling up, but the agencies can issue guidance rather than 
issue rules.
    Another piece of guidance that was a huge guidance was the 
Waters of the United States Rule. That actually started out at 
guidance. And, like you, they went through and did notice and 
comment on that.
    But there are many, many economically significant pieces of 
guidance, but there are thousands of secondary guidances out 
there that slipped through the cracks. There are guidance, 
memoranda, notices, circulars, bulletins, administrative 
interpretations, it is a whole word salad of these, and they're 
not taken into account in the notice and comment process. And 
they really can--the agencies can really slip aside and use 
guidances and said--so it's something you have to watch as you 
do a two for one or any kind of regular campaign.
    Mr. Meadows. So, Mr. Goodwin, would you agree with Ms. Katz 
and Mr. Crews that they should be included in the review 
process?
    Mr. Goodwin. No, absolutely not.
    Mr. Meadows. Why is that? Because you're all about 
transparency, and all of sudden now you're disagreeing with 
your two colleagues on the left and right.
    Mr. Goodwin. I reject the premise that OIRA is transparent 
to begin with.
    Mr. Meadows. So you think that OIRA should be done away 
with?
    Mr. Goodwin. Yeah. Absolutely.
    Mr. Meadows. Why is that?
    Mr. Goodwin. Because it adds nothing of value to the 
rulemaking process.
    Mr. Meadows. In what quantitative analysis would you 
suggest that? It adds nothing?
    Mr. Goodwin. I mean----
    Mr. Meadows. What studies? What quantitative analysis--you 
know, you've been here, and I get a little frustrated, Mr. 
Goodwin, because you act like you don't know what's going on. 
You're an expert witness. You act like all of this is new 
information, and actually there's been online portals with the 
task force and so forth, and you're opining on what is and what 
is not accurate. So what quantitative analysis do you have to 
support that OIRA should be done away with?
    Mr. Goodwin. I don't know if quantitative analysis is 
necessary----
    Mr. Meadows. So you just have your opinion?
    Mr. Goodwin. No. I have several examples of rules that were 
weakened as a result of the rulemaking process.
    Mr. Meadows. And which ones would those be?
    Mr. Goodwin. Oh, EPA's coal ash rule.
    Mr. Meadows. So would you agree with WOTUS's rulemaking 
guidance to rulemaking analysis with regards to how OIRA was 
involved in that? Do you agree with that? You're an EPA lawyer, 
right, so you probably are well-informed on that.
    Mr. Goodwin. I'm not sure what you're asking me about. 
There was a WOTUS guidance, which Mr. Crews was talking about, 
which did undergo OIRA review. There was the original WOTUS 
rule which underwent two OIRA reviews,.
    Mr. Meadows. Right.
    Mr. Goodwin. And now there's----
    Mr. Meadows. And where did they go wrong on that?
    Mr. Goodwin. On the WOTUS rule itself?
    Mr. Meadows. Yeah.
    Mr. Goodwin. It could have been stronger, I think.
    Mr. Meadows. Okay. So let me go back to something. You've 
been talking about how the budgetary analysis that the Trump 
administration has done is bogus. You know, you didn't use the 
word bogus, but you questioned its validity under the Trump 
administration on some of this rulemaking roll-back. Is that 
correct?
    Mr. Goodwin. You mean the cost benefit analysis.
    Mr. Meadows. Yes.
    Mr. Goodwin. Yes.
    Mr. Meadows. All right. And so which--specifically which 
cost benefit analysis are you referring to?
    Mr. Goodwin. The two that I have in mind is the Waters of 
the U.S. repeal and the Clean Power----
    Mr. Meadows. What quantitative analysis--now you're in my 
wheelhouse again. I know you're a moot courtier, so if you want 
to debate it back and forth, I'll be glad to debate this. So in 
what quantitative analysis would you suggest that that was 
wrong? Are you an economist?
    Mr. Goodwin. No.
    Mr. Meadows. Do you have a degree in statistics?
    Mr. Goodwin. No, I have a masters in public policy.
    Mr. Meadows. What about comparative analysis?
    Mr. Goodwin. To the extent that that's incorporated----
    Mr. Meadows. So, Mr. Goodwin, you're an expert witness here 
and making statements, sworn testimony, I guess. Based on what 
analysis are you suggesting that those were quantitatively 
incorrect?
    Mr. Goodwin. Well, I mean, my own assessment of them as 
well as the assessment of other experts on them, including 
folks at NRDC, the Resources for the Future, all kinds of folks 
who have looked at these things, and we all agree that these--
oh, and a researcher at--a Ph.D economist at Harvard.
    Mr. Meadows. You're giving credentials, you're not giving 
quantitative analysis. What quantitative analysis would you 
suggest to support your testimony here?
    Mr. Goodwin. Okay. So for example, with the Waters of the 
United States Rule, the repeal by the Trump administration. 
They took the one large category of benefits that they could 
find, the protection of wetlands and they just zeroed it out, 
based on some pretty flimsy----
    Mr. Meadows. Pretty flimsy, according to you?
    Mr. Goodwin. No, according to everybody that has looked at 
it.
    Mr. Meadows. Everybody? Well, not according to me. I'm not 
in the everybody. Ms. Katz, were you part of that? Did you 
think it was bogus.
    Ms. Katz. I wish I had.
    Mr. Meadows. Okay. Mr. Goodwin, my point is, when you make 
statements you need to back them up with proof. And so let's go 
under the previous administration. Were there any of their 
analysis, cost benefit analysis, that was incorrect?
    Mr. Goodwin. Yes.
    Mr. Meadows. On which ones?
    Mr. Goodwin. Off the top of my head, the coal ash rule that 
I just mentioned before.
    Mr. Meadows. So you're saying that they made the wrong 
analysis on implementing coal ash. That may make headlines.
    Mr. Goodwin. The cost benefit analysis, yeah.
    Mr. Meadows. So you said it would actually benefit us a lot 
more. Is that what you're saying? I'm trying to figure out 
where you're coming from on this.
    Mr. Goodwin. It's been awhile since I looked at it, but the 
rule itself was stronger then--during the OIRA process it was 
weakened, and part of the process for weakening it--or part of 
the justification for weakening it was a cost benefit analysis 
that was flawed. Yeah.
    Mr. Meadows. Okay. So can you get to this committee your 
analysis on where the Trump administration has gone wrong on 
the cost benefit analysis? Your personal----
    Mr. Goodwin. Oh, yeah, sure. It's cited in my testimony as 
well.
    Mr. Meadows. So you're saying today is the first day that 
you really understood anything about the make-up or the input 
from these task forces? Today is the first day? That is your 
testimony?
    Mr. Goodwin. I know very little about what was in these 
things beyond--I think in the New York Times report was all I 
ever really saw of----
    Mr. Meadows. But I thought you were the expert witness here 
today?
    Mr. Goodwin. How can I be an expert on something that's not 
transparent?
    Mr. Meadows. Well but it is. I would say that--I had my 
staff look up, I said, certainly this has to be transparent. 
And there's actually online portals at DOD, Commerce, Interior, 
and other agencies already, and you're the expert, and yet you 
don't know about those online portals, and actually the 
requests for information?
    Mr. Goodwin. Oh, I saw the Department of Interior one. All 
it did was----
    Mr. Meadows. But I thought today was the first day you 
found about it?
    Mr. Goodwin. No, no, no. I said the membership----
    Mr. Meadows. That was your sworn testimony.
    Mr. Goodwin. No, I said today was the first day I knew 
about the membership of the task forces and who those 
individuals were.
    Mr. Meadows. So are the task forces a good thing or a bad 
thing?
    Mr. Goodwin. No, they are a bad thing.
    Mr. Meadows. And you base that on?
    Mr. Goodwin. I identified four flaws in my testimony.
    Mr. Meadows. In terms of--so it's a bad thing based on--
well, I thought, according to you, I got a quote from you that 
basically said that you didn't think that this deregulation 
executive order was really amounted to anything.
    Because, according to you, it was like a bumper sticker or 
a stump speech, something that is hard to be translated into 
regulatory policy. But we're hearing today that it's actually 
been translated into regulatory policy. And it's actually saved 
millions of dollars. So would you revise that statement?
    Mr. Goodwin. Well, $22 million, which according to my 
calculations is $0.07 per American.
    Mr. Meadows. So what is you're saying is because it's only 
$22 million, that's not a big deal?
    Mr. Goodwin. No, I'm just saying it's not as--there's,--you 
know, to the extent that--so what we heard today from the----
    Mr. Meadows. Is $22 million a big deal?
    Mr. Goodwin. It's not as big a deal as people are making it 
out to be. Here is the important things----
    Mr. Meadows. No, that's not an important thing. I think at 
this particular point is, what I'm seeing is, is we've asked a 
host of people to come here from an expert witness standpoint. 
What I got from you was disappointing, Mr. Goodwin, because 
what it came in was with more rhetoric on what you thought, 
with perhaps an agenda.
    Actually, since you mentioned The Times article, they just 
passed me a note. The Times article that you referred to 
actually included many of the names of the task force members. 
So maybe you didn't read it.
    Mr. Goodwin. No, I did. That is what I said, to the extent 
that I knew anything about the membership, it was from that 
article.
    Mr. Meadows. Here's what I want the message to go away 
with. I want to thank each one of you for your testimony. Mr. 
Kohli, thank you for giving us a good model of which, actually 
we saw it implemented in the U.K. and how it's making a 
difference.
    Mr. Goodwin, I come back to you and say that perhaps we can 
look at this in a more open way from a cost benefit analysis. 
And I'll be glad to work with you in the future, looking at it 
from a different perspective.
    Ms. Katz and Mr. Crews, thank you so much for your expert 
testimony, in terms of what it's doing.
    Mr. Goodwin, I would disagree with you from a standpoint of 
the value of OIRA. Under the previous administration and under 
this administration, I think they perform a critical role. And 
to suggest otherwise really makes me question really your 
testimony from an administrative procedures point of view.
    I mean, again, you're in my wheelhouse, and I'll be glad to 
follow-up. If you want to come by my office, my door is always 
open. I'd be glad to do that. But here is the concern I have. 
This is saving real dollars for the American people. And you 
may not think $22 million is a lot, but I think it's a whole 
lot. And every dollar, whether it's $0.07 or not, is money that 
can be directed towards other things and it's critically 
important.
    And I think what we ought to do is applaud these task force 
and the efforts that are there. It shouldn't be a spring 
cleaning kind of event, Mr. Kohli, it should be an ongoing 
event. And as we look at that, to try to implement this across 
the board.
    If there is no further business before the subcommittees, 
the subcommittees stand adjourned.
    [Whereupon, at 12:35 p.m., the subcommittees were 
adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
